No. ______
IN THE

Supreme Court of the United States
MERIT MEDICAL SYSTEMS, INC.,
v.

Cross-Petitioner,

NAZIR KHAN, IFTIKHAR KHAN,
Cross-Respondents.
ON CROSS-PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
CROSS-PETITION
FOR A WRIT OF CERTIORARI

DAVID R. TODD
Counsel of Record
BRENT P. LORIMER
WORKMAN NYDEGGER
60 E. South Temple, Suite 1000
Salt Lake City, Utah 84111
Telephone: (801) 533-9800
Email: dtodd@wnlaw.com
Attorneys for
Merit Medical Systems, Inc.
March 25, 2021

QUESTION PRESENTED
In this patent infringement case, the district
court found that Cross-Respondents violated
Fed.R.Civ.P. 11 (“Rule 11”) by repeatedly making
frivolous arguments regarding venue and service of
process. The court then awarded a portion of CrossPetitioner’s attorney fees as a sanction for the Rule
11 violation. At the end of the case, Cross-Petitioner
moved under 35 U.S.C. § 285 (“Section 285”) for an
award of attorney fees for the entirety of the case,
including a conditional award of the fees already
awarded if the Rule 11 sanctions were disturbed on
appeal. The court rejected the request to award
additional fees under Section 285 on grounds that
the fees already awarded as Rule 11 sanctions were
sufficient. It also rejected the request to conditionally
award fees under Section 285 because it did not want
to rule on a set of “hypothetical circumstances.” On
appeal, the Federal Circuit affirmed the Rule 11
sanctions and the denial of additional fees under
Section 285. The Federal Circuit did not reach CrossPetitioner’s argument that if the Rule 11 sanctions
were disturbed on appeal, the denial of fees under
Section 285 should be vacated. In Case No. 20-773,
Cross-Respondents now ask this Court to reverse the
Rule 11 sanctions. The question presented is:
If this Court determines in Case No. 20-773 that
the Federal Circuit erred in affirming the award
of attorney fees as sanctions under Rule 11,
should this Court also vacate the Federal
Circuit’s affirmance of the denial of the motion
for attorney fees under Section 285 given the
district court’s reasons for denying that motion?
-i-

PARTIES TO THE PROCEEDING
Cross-Petitioner is Merit Medical Systems, Inc.,
who was a Defendant-Cross Appellant in the court
below and moved for an award of attorney fees in the
district court pursuant to 35 U.S.C. § 285.
Cross-Respondents are Nazir Khan and Iftikhar
Khan, who were Plaintiffs-Appellants in the court
below.
The Defendants-Appellees in the court below that
were indemnified by (and represented by counsel for)
Cross-Petitioner Merit Medical Systems, Inc. (but
who are not petitioners here) were Mountain Medical
Physician Specialists, P.C., Clinton Atkinson,
Kourosh Baghelai, Yvon R. Baribeau, Randal Bast,
Pankaj Bhatnagar, George Blessios, Matthew J.
Borkon, Victor Bowers, Robert S. Brooks, Matthew
G. Brown, Robert Brumberg, Jason Burgess, Jeffrey
Cameron, James W. Campbell, Tuan-Hung Chu,
Abilio A. Coello, Jason Dew, Hector Diaz-Luna, Ellen
Dillavou, William Ducey, Ty Dunn, Amit Dwivedi,
Todd Early, Luis G. Echeverri, Charles M. Eichler,
Larry D. Flanagan, Lee Forestiere, Dennis Fry,
Michael Gallichio, Eric Gardner, Joy Garg, Joseph
Griffin, Brad Grimsley, Alok K. Gupta, Allen
Hartsell, Thomas Hatsukami, Jon R. Henwood,
Timothy C. Hodges, Stephen Hohmann, Robert
Hoyne, Stephen Jensik, Blair Jordan, Fernando
Kafie, Howard E. Katzman, John C. Kedora, Edward
Kim, Michael Klychakin, Eric Ladenheim, Anne
Lally, Chad Laurich, James D. Lawson, Damian
Lebamoff, Heather LeBlanc, David B. Leeser, Gary
Lemmon, Eddy Luh, Jeffrey Martinez, Jonathon R.
- ii -

Molnar, Robert Molnar, Sheppard Mondy, Edward
Morrison, Raghu L. Motagnahalli, Ruban Nirmalan,
William Omlie, Paul Orland, Gerardo Ortega,
Herbert Oye, Boris Paul, Jeffrey Pearce, Heidi A.
Pearson, Thomas Reifsnyder, Walter Rizzoni, James
R. Rooks, Carlos Rosales, Thomas Ross, Allan Roza,
Ignacio Rua, Marius Saines, Albert Sam, Angelo
Santos, Howard L. Saylor, Andres Schanzer, William
Schroder, Stephen Settle, Murray L. Shames,
Andrew Sherwood, Jeffrey Silver, Eugene Simoni,
David Smith, Todd Smith, William Soper, Jeff
Stanley, Gary Tannenbaum, William J. Tapscott,
Chase Tattersall, W. Andrew Tierney, Gustavo
Torres, Boulos Toursarkissian, Stephen Wise Unger,
Alexander Uribe, Julio Vasquez, Jonathan Velasco,
Benjamin Westbrook, Michael Willerth, Thomas
Winek, Christopher Wixon, Peter Wong, and Virginia
Wong. Cross-Petitioner believes that these parties
have no interest in the outcome of this cross-petition
because they did not move for attorney fees under 35
U.S.C. § 285 in the district court.
Other Defendants-Appellees in the court below
that were not indemnified by Cross-Petitioner Merit
Medical Systems, Inc. (and who were represented by
separate counsel) were Hemosphere Inc., CryoLife
Inc., Louis Elkins, Mark Grove, Javier AlvarezTostado, Siddarth Patel, Luis Sanchez, and Patrick
Geraghty. Cross-Petitioner believes that these
parties have no interest in the outcome of this crosspetition because they did not move for attorney fees
under 35 U.S.C. § 285 in the district court.

- iii -

CORPORATE DISCLOSURE STATEMENT
Cross-Petitioner Merit Medical Systems, Inc. has
no parent corporation, and no other publicly held
company owns more than 10% of its stock.

STATEMENT OF RELATED PROCEEDINGS
x

x

x
x

Khan et al. v. Hemosphere Inc. et al., No. 1:18-cv05368, U.S. District Court for the Northern
District of Illinois. Judgments entered May 16,
2019 and July 24, 2019.
Khan et al. v. Merit Medical Systems, Inc., No. 192471, U.S. Court of Appeals for the Seventh
Circuit. Appeal dismissed under Fed. R. App. P.
42(b) on Sept. 16, 2019.
Khan et al. v. Hemosphere Inc. et al., Nos. 19-1952
and 19-2394, U.S. Court of Appeals for the
Federal Circuit. Judgment entered Aug. 13, 2020.
Khan et al. v. Merit Medical Systems, Inc. et al.,
No. 20-773, Supreme Court of the United States.
Case pending.

- iv -

TABLE OF CONTENTS
QUESTION PRESENTED........................................... i
PARTIES TO THE PROCEEDING ............................ii
CORPORATE DISCLOSURE STATEMENT ........... iv
STATEMENT OF RELATED PROCEEDINGS........ iv
TABLE OF CONTENTS ............................................. v
TABLE OF AUTHORITIES .....................................viii
CROSS-PETITION
FOR
A
WRIT
OF
CERTIORARI ................................................... 1
OPINIONS BELOW .................................................... 1
JURISDICTIONAL STATEMENT ............................. 3
STATUTORY PROVISIONS ...................................... 3
STATEMENT OF THE CASE .................................... 3
A. The Khans’ Patents and the Accused
HeRO® Graft .................................................... 4
B. The Khans’ Complaint ...................................... 6
C. Merit’s Motion to Dismiss or Transfer for
Improper Venue and the First of Merit’s
Warnings to the Khans .................................... 6
D. The Khans’ Frivolous Arguments on Venue
and Merit’s Further Warnings to Them .......... 7
E. The Khans’ Attempt to Serve the
Physicians and Further Notice to the
Khans About Their Frivolous Arguments ....... 8
F. The District Court’s January 23, 2019
Order Regarding Venue ................................. 10
G. The Khans’ Motion for Reconsideration on
Venue and Merit’s Further Warnings to the
Khans .............................................................. 10
-v-

H. Merit’s Further Warnings to the Khans on
Behalf of the Merit Physicians ....................... 12
I. The Physicians’ Motions to Dismiss and
Motion for Rule 11 Sanctions ......................... 12
J. The Court’s May 16, 2019 Order
Dismissing the Remainder of the Khans’
Claims and Awarding Sanctions .................... 16
K. The Khans’ Flurry of Additional Frivolous
and Outrageous Filings .................................. 19
L. The District Court’s July 15, 2019 Order
and July 24, 2019 Judgment Quantifying
Rule 11 Sanctions ........................................... 22
M. Merit’s Motion for Attorney Fees Under
35 U.S.C. § 285 ............................................... 24
N. Federal Circuit Appeal ................................... 26
REASONS FOR GRANTING THE CROSSPETITION....................................................... 28
CONCLUSION .......................................................... 33
APPENDIX A

August 13, 2020 Opinion of the
U.S. Court of Appeals for the
Federal Circuit................................ 1a

APPENDIX B

January 23, 2019 Order of the
U.S. District Court for the
Northern District of Illinois ......... 23a

APPENDIX C

February 13, 2019 Order of the
U.S. District Court for the
Northern District of Illinois ......... 28a

APPENDIX D May 16, 2019 Memorandum
Opinion and Order of the U.S.
District Court for the Northern
District of Illinois .......................... 32a
- vi -

APPENDIX E

May 16, 2019 Judgment of the
U.S. District Court for the
Northern District of Illinois ......... 45a

APPENDIX F

July 15, 2019 Order of the U.S.
District Court for the Northern
District of Illinois .......................... 47a

APPENDIX G July 24, 2019 Judgment of the
U.S. District Court for the
Northern District of Illinois ......... 52a
APPENDIX H September 4, 2019 Minute Entry
of the U.S. District Court for the
Northern District of Illinois ......... 53a
APPENDIX I

November 6, 2020 Order of the
U.S. Court of Appeals for the
Federal Circuit.............................. 56a

- vii -

TABLE OF AUTHORITIES
Cases
Buzynski v. Luckenbach S.S. Co.,
277 U.S. 226 (1928) .............................................. 32
In re Khan,
722 Fed. Appx. 1038 (Fed. Cir. 2018) .................... 6
Khan v. Hemosphere Inc.,
2019 WL 10947304 (N.D. Ill. Jan. 23,
2019) ................................................................. 1, 10
Khan v. Hemosphere Inc.,
2019 WL 2137378 (N.D. Ill. May 16,
2019) ..................................................... 2, 16, 17, 18
Khan v. Hemosphere Inc.,
2019 WL 10947306 (N.D. Ill. July 15,
2019) ................................................................. 2, 22
Khan v. Merit Medical Systems Inc.,
2019 WL 7811331 (7th Cir. No. 19-2471,
Sep. 16, 2019) ................................................... 3, 19
Khan v. Hemosphere Inc.,
825 Fed. Appx. 762 (Fed. Cir. 2020)
.............................................................. 1, 27, 28, 32
Lawrence v. Chater,
516 U.S. 163 (1996) .............................................. 29
MedImmune, Inc. v. Genentech, Inc.,
549 U.S. 118 (2007) .............................................. 32

- viii -

Octane Fitness, LLC v. Icon Health &
Fitness, Inc.,
572 U.S. 545 (2014) .................................. 25, 31, 32
TC Heartland LLC v. Kraft Foods
Group Brands LLC,
137 S.Ct. 1514 (2017) ....................................... 7, 17
Watts, Watts & Co. v. Unione Austriaca
Di Navigazione,
248 U.S. 9 (1918) .................................................. 29
Statutes
28 U.S.C. § 1254(1) ...................................................... 3
28 U.S.C. § 1391(g) ................................................ 7, 21
28 U.S.C. § 1400(b) ...................................................... 6
28 U.S.C. § 1404(a) .............................................. 10, 21
28 U.S.C. § 2106 .................................................. 28, 29
35 U.S.C. § 251 ............................................................ 5
35 U.S.C. § 285 .................................................. passim
35 U.S.C. § 299 .................................................... 12, 17
Other Authorities
Fed.R.Civ.P. 4 .......................... 8, 11, 13, 14, 15, 17, 20
Fed.R.Civ.P. 11 .................................................. passim
Fed.Cir.R. 30(e) ........................................................... 5

- ix -

CROSS-PETITION
FOR A WRIT OF CERTIORARI
Merit Medical Systems, Inc. hereby respectfully
petitions this Court to issue a writ of certiorari to
review the judgment of the United States Court of
Appeals for the Federal Circuit if this Court issues a
writ of certiorari to review the same judgment in
Case No. 20-773.
OPINIONS BELOW
The Federal Circuit’s opinion accompanying the
judgment for which review is sought is reported at
Khan v. Hemosphere Inc., 825 Fed. Appx. 762 (Fed.
Cir. 2020) and is reproduced at Appx. A (pp. 1a-22a),
which affirms, inter alia, the district court’s award of
Rule 11 sanctions and the district court’s denial of
additional attorney fees under 35 U.S.C. § 285. The
Federal Circuit’s order denying rehearing may be
found at Fed. Cir. Appeal Nos. 19-1952, 19-2394,
Nov. 6, 2020, ECF No. 153, and is reproduced at
Appx. I (pp. 56a-57a).
The district court’s decisions and judgments are
reported (or may be found) as follows:
x

2019 WL 10947304 (N.D. Ill. No. 1:18-cv05368, Jan. 23, 2019, ECF No. 76) (decision
dismissing
claims
against
various
defendants for lack of proper venue),
reproduced at Appx. B (pp. 23a-27a)

x

N.D. Ill. No. 1:18-cv-05368, Feb. 13, 2019,
ECF No. 84) (decision denying request for

-1-

reconsideration), reproduced at Appx. C
(pp. 28a-31a)
x

2019 WL 2137378 (N.D. Ill. No. 1:18-cv05368, May 16, 2019, ECF No. 135)
(decision
dismissing
claims
against
remainder of defendants for lack of proper
venue, for lack of proper service of process,
for improper joinder, and for want of
prosecution, and granting Rule 11
sanctions for frivolous venue and service
arguments), reproduced at Appx. D (pp.
32a-44a)

x

N.D. Ill. No. 1:18-cv-05368, May 16, 2019,
ECF No. 136 (judgment in favor of
defendants
and
against
plaintiffs),
reproduced at Appx. E (pp. 45a-46a)

x

2019 WL 10947306 (N.D. Ill. No. 1:18-cv05368, July 15, 2019, ECF No. 175)
(decision
quantifying
and
awarding
attorney fees as Rule 11 sanctions),
reproduced at Appx. F (pp. 47a-51a)

x

N.D. Ill. No. 1:18-cv-05368, July 24, 2019,
ECF No. 182 (judgment awarding attorney
fees as Rule 11 sanctions), reproduced at
Appx. G (p. 62a)

x

N.D. Ill. No. 1:18-cv-05368, Sept. 4, 2019,
ECF No. 213 (decision denying motion for
attorney fees under 35 U.S.C. § 285),
reproduced at Appx. H (pp. 53a-55a)

An order dismissing an appeal to the U.S. Court
of Appeals for the Seventh Circuit from the district
court’s order/judgment granting Rule 11 sanctions is

-2-

reported at 2019 WL 7811331 (7th Cir. No. 19-2471,
Sep. 16, 2019).
JURISDICTIONAL STATEMENT
The United States Court of Appeals for the
Federal Circuit entered its judgment and opinion on
August 13, 2020 and denied the Cross-Respondents’
timely filed combined petition for rehearing and
rehearing en banc on November 6, 2020. By general
order dated March 19, 2020, this Court extended the
time to file a petition for a writ of certiorari in all
cases to 150 days from the date of an order denying a
timely petition for rehearing, i.e., until April 5, 2021
in this case. This Court has jurisdiction over this
matter pursuant to 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS
35 U.S.C. § 285, entitled “Attorney fees,”
provides:
The court in exceptional cases may award
reasonable attorney fees to the prevailing
party.
STATEMENT OF THE CASE
This is a case in which Petitioners (“the
Khans”), acting pro se, filed suit in Illinois against
three corporations and over 300 physicians from 43
states for patent infringement. The district court
dismissed the Khans’ complaint on multiple
alternative grounds and sanctioned them under

-3-

Fed.R.Civ.P. 11 (“Rule 11”) but denied a motion by
Respondent Merit Medical Systems, Inc. (“Merit”) for
attorney fees under 35 U.S.C. § 285 (“Section 285”).
As will become apparent from the facts set forth
below, the Khans’ lawsuit was the epitome of
unreasonable litigation. They filed in an improper
venue against a huge number of improperly joined
defendants, litigated in an irrational manner, and
presented frivolous arguments on venue, service,
infringement, and other issues. They repeatedly
refused to heed warnings from counsel and the court
that their arguments were baseless, ignored
procedural rules, and made preposterous personal
attacks on Merit’s counsel.
On appeal, the Federal Circuit affirmed the
district court’s decisions in all respects, including the
court’s decision to sanction the Khans under Rule 11
as well as the court’s decision not to award
additional attorney fees under Section 285. The
Khans now seek certiorari to reverse the Federal
Circuit’s affirmance of the Rule 11 sanctions against
them. This cross-petition simply asks this Court, in
fairness, to grant certiorari and vacate the Federal
Circuit’s affirmance of the district court’s denial of
Merit’s Section 285 motion if the Rule 11 sanctions
against the Khans are disturbed.
A. The Khans’ Patents and the Accused
HeRO® Graft
The patent-in-suit in this case is U.S. Patent
No. 8,747,344 (“the ’344 patent”). The ’344 patent
traces its origins to U.S. Patent No. 8,282,591 (“the
’591 patent”). The original application for the ’591
patent required an “arteriovenous shunt” comprising
-4-

(1) an “arterial graft,” (2) a “venous outflow
catheter,” and (3) a “cuff” that was merely
“connected to” the graft and the catheter.
(SAppx1386-1390.1) The Patent Office forced the
Khans to narrow the application to require a cuff
“disposed about” the ends of the graft and catheter,
i.e., encircling the ends of the graft and catheter, to
obtain allowance of the ’591 patent. (SAppx13911453; SAppx1589-1591.)
During prosecution of the application for the
’344 patent, the Khans tried to broaden their patent
coverage by replacing the “disposed about”
requirement with language requiring only that the
cuff be “connected to” the two ends. (SAppx15921601.) The Patent Office rejected that attempt and
again required the Khans to narrow their application
to require a cuff “disposed about” the two ends.
(SAppx1602-1623.)
When the ’344 patent issued in 2014, defendant
Cryolife was selling “the HeRO® Graft,” the product
the Khans now accuse of infringement. (SAppx137.)
In 2016, Merit acquired the HeRO® Graft from
Cryolife and began selling it. (SAppx137.)
Significantly, the Khans admit that the connector of
the HeRO® Graft is “disposed within” the ends of
the graft and catheter, not “disposed about” them.
(SAppx134; SAppx270; SAppx715.)
In 2014, the Khans filed a reissue application
under 35 U.S.C. § 251, again attempting to remove
the “disposed about” requirement from the ’591
References to “SAppx” herein are references to the
Fed.Cir.R. 30(e) Supplemental Appendix filed with the Federal
Circuit on December 23, 2019 (Fed. Cir. Appeal No. 19-1952,
ECF No. 67).
1

-5-

patent so it would cover the HeRO® Graft.
(SAppx1630-1646.) During that process, the Khans
repeatedly admitted the HeRO® Graft does not
infringe and would not infringe unless the “disposed
about” requirement were removed. For example,
they stated: “The patent owner can not sue the
companies under literal infringement and
doctrine of equivalence…because of cuff
connector being disposed about the catheter
and the graft….” (Fed. Cir. No. 17-2207, ECF No.
37, p. 5; accord SAppx1652; SAppx1660-1661;
SAppx1668-1669.) The Patent Office rejected the
Khans’ attempt to remove the “disposed about”
requirement, and the Federal Circuit affirmed. 722
Fed. Appx. 1038 (Fed. Cir. 2018).
B. The Khans’ Complaint
Despite the concessions the Khans made to the
Patent Office to obtain their patents and despite
their admissions that the HeRO® Graft does not
meet the “disposed about” requirement, the Khans
sued for infringement anyway. (SAppx91-155.) In
August 2018, the Khans filed a complaint alleging
infringement of the ’344 patent against Merit, past
manufacturers of the HeRO® Graft, and 300+
physicians from 43 states. They sued in Illinois, even
though the face of the complaint demonstrated venue
was improper there. (SAppx131; SAppx91-128.)
C. Merit’s Motion to Dismiss or Transfer for
Improper Venue and the First of Merit’s
Warnings to the Khans
Merit moved to dismiss the claims against it for
improper venue. Merit’s motion cited the patent
venue statute, 28 U.S.C. § 1400(b), and this Court’s
-6-

decision in TC Heartland LLC v. Kraft Foods Group
Brands LLC, 137 S.Ct. 1514 (2017). (SAppx160-174.)
Not only did the complaint itself demonstrate that
venue was improper under those authorities, but
Merit also submitted evidence confirming it.
(SAppx131; SAppx176-179.)
Merit then wrote the Khans, informing them
that “[a] reasonable investigation would have
demonstrated that Chicago is not a proper venue for
litigation against Merit or most of the doctor
defendants.” (SAppx196.) Merit further told the
Khans that their infringement claims were frivolous
and warned them that if they did not dismiss the
complaint, Merit would seek sanctions under Rule 11
and attorney fees under 35 U.S.C. § 285. (SAppx208.)
D. The Khans’ Frivolous Arguments on
Venue and Merit’s Further Warnings to
Them
Undeterred, the Khans filed an opposition to
Merit’s venue motion. Incredibly, the Khans relied
on the Federal Circuit’s decision in the TC
Heartland case, even though that decision had been
reversed by this Court over a year earlier and even
though Merit had highlighted this Court’s decision in
its motion and its letter to the Khans. (SAppx180182.) The Khans also asserted venue was proper
under 28 U.S.C. § 1391(g), a venue statute for mass
tort actions. Id.
Merit again wrote the Khans, explaining why
their venue arguments were baseless and warning
that if they did not withdraw their opposition, Merit
would seek sanctions. (SAppx209-213.) The Khans
responded by threatening to lodge a bar complaint
-7-

against Merit’s counsel. (SAppx228-229.) Merit’s
counsel sent the Khans a copy of Rule 11, explained
why their filings violated Rule 11, and again warned
that Merit would seek sanctions and fees under Rule
11 and Section 285. (SAppx231-234.) The Khans did
not withdraw their opposition. Merit’s reply pointed
out the baselessness of the Khans’ venue arguments.
(SAppx184-193.)
E. The Khans’ Attempt to Serve the
Physicians and Further Notice to the
Khans About Their Frivolous Arguments
At about this same time, the Khans attempted
to serve the 300+ physicians by mailing each of them
a request for waiver of service under Fed.R.Civ.P.
4(d). The Khans’ decision to sue 300+ defendants
from 43 states required Merit to undertake a
massive effort to determine which physicians had
purchased the HeRo® Graft from it, contact those
physicians, arrange for indemnification and
representation, coordinate with the physicians’
employers and independent outside counsel,
investigate and gather facts relevant to venue and
service, and keep the physicians informed as to
developments in the case. Illustrative of the burden
imposed by the Khans’ litigation tactic is the fact
that Merit’s counsel exchanged over 2,000 emails or
letters with the physicians during this case.
(SAppx1122-1124, ¶35.)
In an attempt to mitigate the effects of the
Khans’ decision to sue 300+ physicians, Merit
prepared and filed a motion to stay the case until the
court’s ruling on Merit’s venue motion, which the
court granted. (SAppx61-62 (ECF Nos. 26, 29).) Merit
also prepared and filed a motion to stay the action
-8-

against the physicians based on the customer-suit
exception until resolution of the Khans’ dispute with
the manufacturers. (SAppx62 (ECF No. 43).) The
court granted that motion, but only for the pendency
of Merit’s venue motion and only after the Khans
had opposed the motion and Merit had incurred the
expense of briefing it. (SAppx62-63 (ECF Nos. 44, 46,
47, 48).)
At a hearing in November 2018, the Khans
represented that they had completed service on the
300+ physicians “by U.S. mail.” (SAppx944, 4:1-2;
SAppx948, 8:5-8.) When Merit’s counsel explained
that service by mail was insufficient without a
waiver, the Khans accused him of “lying.”
(SAppx948-949, 8:11-9:8; SAppx951, 11:14-18.) The
court explained to the Khans that “[w]e don’t accuse
the other party of lying just because they’re taking a
legal position that the service was improper.”
(SAppx951, 11:23-25.) The court also explained to the
Khans that “[y]ou are required to follow the
procedures of the court.” (SAppx954, 14:11-12;
SAppx946, 6:9-11.) Despite these warnings, the
Khans continued to argue that mailing a waiver
request constituted sufficient service. (SAppx259;
SAppx264; SAppx269-270.)
At the same hearing, the court also discussed
venue. The court informed the Khans that “the
Supreme Court of the United States just ruled in the
past year about proper venue for patent cases, and so
that is what we will be following when I review your
motion.”
(SAppx952, 12:22-25.)
Despite this
warning, the Khans did not withdraw their
opposition to Merit’s venue motion.

-9-

F. The District Court’s January 23, 2019
Order Regarding Venue
On January 23, 2019, the court granted Merit’s
motion to dismiss for improper venue for the reasons
in Merit’s moving papers and its letters to the
Khans. 2019 WL 10947304 (N.D. Ill. No. 1:18-cv05368, Jan. 23, 2019, ECF No. 76) (reproduced at
Appx B). The court’s order warned the Khans “to
take heed of the potentially meritorious arguments
raised by defendants.” Id. at *2.
By that date, it had been about 170 days since
the Khans had filed their complaint, and they had
filed only one waiver of service executed by a
defendant physician. (ECF No. 53.) At a hearing
announcing its ruling, the court again warned the
Khans about service and venue for the remaining
300+ physicians. (SAppx964, 10:10-16.) The Khans
again insisted that mailing a waiver request was
sufficient service. (SAppx966, 12:3-9.) The court
explained that mailing a waiver request was plainly
insufficient. (SAppx966, 12:10-21.) Despite these
warnings, the Khans continued to argue that mailing
a waiver request was sufficient. (SAppx310;
SAppx329;
SAppx699-701;
SAppx743-745;
SAppx983-984, 5:14-6:7; SAppx771.)
G. The Khans’ Motion for Reconsideration
on Venue and Merit’s Further Warnings
to the Khans
The Khans next filed a motion for
reconsideration, advancing additional frivolous
venue arguments, including an argument that venue
was proper under 28 U.S.C. § 1404(a), a statute
governing transfer of venue. (SAppx273-277; see also
- 10 -

SAppx269.) After reviewing the motion, Merit’s
counsel again wrote the Khans explaining why
nothing in their motion changed the conclusion that
venue was improper for Merit. (SAppx682-685.)
Merit’s letter also addressed venue and service
for the physicians. (SAppx684.) Specifically, Merit
explained that the physician addresses listed in the
complaint showed that venue was improper in
Illinois for “the vast majority of the physician
defendants.” (SAppx684.) Merit also explained that
the Khans had failed to properly serve nearly all the
physicians and that the 90 days allotted for service
in Fed.R.Civ.P. 4(m) had long since passed.
(SAppx684.) At that point, the Khans had filed only
three waivers of service (and that was all they would
ever file). (ECF Nos. 53, 78.)
Merit proposed that the Khans dismiss their
claims against the physicians and sue the
manufacturers in a proper venue, explaining that
this would allow them to litigate their claims
“against two defendants in two locations, instead
of…against hundreds of doctors in 43 states.”
(SAppx684-685.)
The Khans refused to withdraw their motion for
reconsideration. Merit filed its opposition, and the
court rejected the Khans’ motion for the reasons in
Merit’s opposition and its letters to the Khans.
(SAppx313-323; SAppx4-5.) The court “again
caution[ed]” the Khans “that prosecuting a patent
case of any size, much less one against three hundred
defendants, is a complex endeavor” and that they
“should carefully evaluate clearly established
requirements set forth in governing statutes and
other applicable authority so as not to unnecessarily
- 11 -

occupy the time and resources of the Court and other
involved parties.” (SAppx5 (reproduced at Appx C).)
H. Merit’s Further Warnings to the Khans
on Behalf of the Merit Physicians
Merit’s counsel then wrote the Khans on behalf
of the 100+ physicians Merit had indemnified (“the
Merit physicians”). (SAppx686-689.) Counsel told the
Khans they should heed the court’s warnings and
that if they continued making their frivolous venue
and service arguments, the Merit physicians would
seek sanctions. (SAppx687-688.) The letter again
proposed that the Khans dismiss their claims against
the physicians and sue the manufacturers in a
proper venue. (SAppx687-688.)
The Khans initially indicated that they would
dismiss all the non-Illinois Merit physicians
(SAppx691), but then reneged and refused
(SAppx693-698).
I. The Physicians’ Motions to Dismiss and
Motion for Rule 11 Sanctions
The 100+ Merit physicians therefore filed
motions to dismiss. The Merit physicians residing
outside Illinois moved for dismissal based on
improper venue, insufficient service, and misjoinder
under 35 U.S.C. § 299. (SAppx333-352.) Two Merit
physicians residing in Illinois also moved for
dismissal based on insufficient service and
misjoinder. (SAppx405-416.)
The non-Illinois physicians’ motion relied on the
rules of venue that had already been briefed and
ruled upon multiple times. (SAppx340-343.) Both
sets of motions also relied on the rules governing
service that the court and Merit’s counsel had
- 12 -

repeatedly warned the Khans about. (SAppx347-350;
SAppx413-415.)
Meanwhile, additional physicians accepted
Merit’s offer of indemnification. Merit’s counsel
therefore filed four additional motions to dismiss, all
on the same grounds as previously urged.
(SAppx558-575;
SAppx587-603;
SAppx780-799;
SAppx543-554.) Six other physicians represented by
other counsel filed five motions to dismiss on similar
grounds. (ECF Nos. 93, 96, 99, 100, 102.)
The non-Illinois Merit physicians also filed (and
served) a motion for Rule 11 sanctions. (SAppx615634.) The motion demonstrated that the Khans had
been warned multiple times about their frivolous
arguments regarding venue and service, explained
that the Khans had ignored those warnings, and
asked the court to sanction the Khans. (SAppx615634.) The motion pointed out that under Seventh
Circuit precedent, the movants’ warning letters were
sufficient to satisfy the notice provisions of
Fed.R.Civ.P. 11(c) and that the Khans had been
adequately warned about their frivolous arguments
more than 21 days before the motion was filed.
(SAppx632-633.)
Incredibly, despite multiple warnings from the
court and from Merit, the Khans responded to the
motions to dismiss by arguing that the physicians
had “a duty and obligation to return the waiver of
service of summons form.” (SAppx700-701.) The
Khans also argued—in a non sequitur—that sending
a waiver request constitutes sufficient service
because Rule 4 requires a defendant who fails to
return a waiver to pay the expenses of service.
(SAppx699-701.)
- 13 -

The Khans next responded to the sanctions
motion. Even though that motion was premised on
the Khans’ frivolous arguments on venue and service,
the Khans argued that they should not be sanctioned
because their position on infringement was not
frivolous. (SAppx715-717.) As the history of the
Khans’ patents demonstrates, the Khans’ position on
infringement was frivolous, but that was not the
basis of the sanctions motion. Significantly, the
Khans did not object to the movants’ failure to serve
the sanctions motion on the Khans 21 days before
filing it. (SAppx715-717.)
The court held a hearing in March 2019. There,
the court explained to the Khans that the sanctions
motion was “not alleging that your invention is
frivolous,” but instead was alleging that “you’re
abusing the process of the rules.” (SAppx983, 5:6-10.)
When asked to respond to that contention, the Khans
argued that the physicians “have to respond to the
waiver. That is what Rule 4 says.” (SAppx984, 6:6-7.)
The court again informed the Khans—twice—that
they were misreading Rule 4 and that defendants are
not required to accept a waiver request. (SAppx984,
6:4-5; SAppx985, 7:5-6.) The court also encouraged
the Khans to hire an attorney “who knows the rules”
and did so multiple times during the case
(SAppx986, 8:15-24; see also SAppx946, 6:2-8;
SAppx1079-1082, 6:20-9:16.) The Khans admitted
that they had the means to do so, but chose to
proceed pro se. (SAppx1082, 9:4-16.)
Venue was also discussed at the hearing. When
the Khans insisted that “[t]his case has to go to the
jury for trial to see if [our] case is valid,” the court
explained that they had “not been listening to my
- 14 -

rulings about where the case needs to be filed.”
(SAppx984, 6:12-15.) The Khans then backpedaled,
telling the court that if the physicians had responded
to their mailings by asserting that venue was
improper, the Khans would have dismissed them
from the case. (SAppx984, 6:20-22.) That assertion
was clearly false, because Merit’s counsel had done
just that and yet the Khans had refused dismissal
(after initially agreeing to it). (SAppx686-698.) The
Khans’ assertion was also contradicted by their
continued opposition to the motions to dismiss for
improper venue. (SAppx700.)
The court granted the Khans leave to file
supplemental papers, which they did. On the motions
to dismiss, the Khans again argued—despite the
court’s explicit and repeated instruction to the
contrary—that Rule 4 “requires that ‘Defendants
cooperate.’” (SAppx744.)
The Khans also filed a supplemental response to
the sanctions motion. Even though the motion was
premised on the Khans’ frivolous arguments on
venue and service, and even though the court had
explained this to the Khans just a few days earlier,
the Khans again argued that their position on
infringement was not frivolous. (SAppx757-760.)
They also made a new argument: that because the
defendants had not signed a waiver, the court had no
jurisdiction over the physicians and therefore—again
asserting a non sequitur—the physicians could not
ask for sanctions. (SAppx758.) This was the Khan’s
second filing opposing sanctions in which they did
not object to the movants’ failure to serve the
sanctions motion before filing it. (SAppx757-760.)

- 15 -

After the Merit physicians replied, the Khans
filed another paper insisting that the physicians had
been properly served and there should be no
sanctions for the Khans’ arguments about service.
(SAppx719-726;
SAppx764-767;
SAppx771-773.)
They also argued that they should not be sanctioned
for their arguments on venue, because they had
agreed to dismiss one of the physicians (SAppx772),
even though they had refused to dismiss the 100+
other physicians moving for sanctions. This was the
Khans’ third filing opposing sanctions in which they
did not object to the movants’ failure to serve the
sanctions motion before filing it. (SAppx771-773.)
J. The Court’s May 16, 2019 Order
Dismissing the Remainder of the Khans’
Claims and Awarding Sanctions
On May 16, 2019, the court granted all the
pending motions to dismiss, granted the motion for
sanctions, and entered final judgment dismissing the
Khans’ complaint. 2019 WL 2137378 (N.D. Ill. No.
1:18-cv-05368, May 16, 2019, ECF No. 135)
(reproduced at Appx D); SAppx19 (reproduced at
Appx E).
The court’s order began by reciting the court’s
many unheeded warnings to the Khans. Id. at *1.
The court then addressed the issue of service, noting
that the Khans had only filed three waivers of
service and rejecting their claim that defendants are
required to waive service. Id. at *2. The court further
noted that the Khans had not even attempted to
serve the physicians personally, instead “insist[ing]
throughout the course of this litigation that they
completed service by mailing the summons and
complaint.” Id. The court found that the Khans had
- 16 -

failed to comply with the 90-day service requirement
of Fed.R.Civ.P. 4(m), explaining that after more than
250 days, “nearly all of the Defendants have still not
been properly served.” Id. at *3. The only
justification the Khans offered for this “extreme
delay” was “their tired refrain that service was
completed by U.S. Mail.” Id. The court concluded:
“By maintaining this contention, in the face of
directly contrary instruction from the Court,
Plaintiffs have failed to comply with the necessary
procedural rules for litigating their case” and
therefore “due to insufficient and untimely service,
Plaintiffs’ Complaint is dismissed for want of
prosecution.” Id.
As an alternative ground of dismissal for the
non-Illinois physicians, the court ruled that venue
was improper. Id. The court observed that “nearly all
of the Defendants are not residents of Illinois and
are instead scattered throughout the country in
dozens of different states.” Id. The court also relied
on improper joinder under 35 U.S.C. § 299 as an
alternative ground for dismissal. Id.
The court’s order also decided the sanctions
motion. The court observed how the court and Merit
had repeatedly cited this Court’s TC Heartland
decision and that, under that decision, “[t]he
Plaintiffs’ own Complaint undercuts any good faith
basis for asserting venue is proper in this district.”
2019 WL 2137378 at *4. Therefore, “[n]o reasonable
person would have concluded that [the Khans’ venue]
argument had support in the law or in the facts of
this case.” Id.
The court then addressed why sanctions were
appropriate based on the Khans’ arguments about
- 17 -

service. Id. at *5. As the court explained, the Khans
had maintained that service by mail was sufficient
even though “the Court instructed Plaintiffs that
waiver of service is merely optional…and in the
absence of waiver, they must accomplish service
through other means.” Id. The court concluded:
“Plaintiffs’ stubborn assertions to the contrary are
without any merit and no reasonable person would
have believed otherwise.” Id.
The court observed that “Rule 11(c) requires
that a party seeking sanctions must wait 21 days
after the offending party is put on notice of the
possibly sanctionable offense.” Id. The court held
that the movants had put the Khans on notice of
their intent to seek sanctions via multiple letters
served more than 21 days before filing the sanctions
motion and therefore had satisfied “the 21-day
requirement.” Id. Because the Khans had not raised
the issue, the court did not address whether the
movants were required to serve the motion rather
than their warning letters. Id.
In its order, the court recognized that the Khans
were acting pro se but explained that they “not only
acted in direct contravention to clear procedural
rules, statutes, and governing law, but continued to
do so after being repeatedly warned at hearings by
the Court, in written orders, and in correspondence
with defense counsel.” Id. Therefore, “Plaintiffs
should have known their positions on venue and
service were groundless.” Id. The court awarded
sanctions comprising the “fees and costs incurred by
the non-resident Defendants in association with
their Motion to Dismiss and Motion for Sanctions.”
Id.
- 18 -

Following the court’s decision, Merit’s counsel
filed detailed documentation establishing that the
reasonable attorney fees expended for the six
motions to dismiss and the motion for sanctions
amounted to $95,966.90. (SAppx808-815; SAppx819829; SAppx833-873; SAppx877-883.)
K. The Khans’ Flurry of Additional
Frivolous and Outrageous Filings
The Khans then filed a notice of appeal
challenging the court’s judgment dismissing their
complaint (SAppx807)2 and began a flurry of
additional frivolous filings while awaiting the court’s
ruling quantifying the sanctions.
The Khans first requested that “all actions of
the court be kept in abeyance” until their appeal was
decided (SAppx884-885) but did not even address the
rules governing a stay pending appeal. Merit
demonstrated a stay was inappropriate, and the
court denied the motion. (SAppx886-893; ECF No.
150.)
The Khans next argued that the amount of fees
sought was too high because “the reasonable cost [for
preparing a motion to dismiss] is at most $1000$2000, as Drs Khan have confirmed with their many
attorney friends.” (SAppx900.) The Khans offered no
affidavits or other evidence to support this assertion
The Khans later filed a notice of appeal to the Seventh
Circuit challenging the court’s Rule 11 decisions but dismissed
that appeal. (SAppx1072-1073; SAppx1823 (reproduced at 2019
WL 7811331 (7th Cir. No. 19-2471, Sep. 16, 2019).) They never
filed another notice of appeal, giving rise to questions about the
Federal Circuit’s jurisdiction over the Khans’ challenge to the
Rule 11 sanctions. See Federal Circuit Appeal No. 19-1952, ECF
No. 85, pp. 6-7.
2

- 19 -

and made no specific objections to the fees sought,
nor did they acknowledge that the fees were for the
preparation of six motions to dismiss and a motion
for sanctions. (SAppx899-901.) This was the Khans’
fourth filing opposing sanctions in which they did not
object to the movants’ failure to serve the sanctions
motion before filing it. (SAppx899-901.)
The Khans next sent Merit’s counsel an email
purporting to serve the 100+ Merit physicians with
the complaint that the court had already dismissed.
(SAppx902-903; SAppx907-910.) After Merit brought
this to the court’s attention, the Khans asserted that
it had been sent “in error.” (SAppx911.)
The Khans then filed another paper re-hashing
arguments challenging the sanctions. (SAppx915925.) The Khans again argued that because the
physicians had not been served (admitting that there
had been insufficient service), the court had no
jurisdiction over the physicians and therefore—again
arguing a non sequitur—the physicians could not ask
for
sanctions.
(SAppx915-916;
SAppx921.)
Simultaneously (and inconsistently), the Khans
argued that “under FRCP Rule 4, the Defendants
have a duty and obligation to sign the [waiver] form
and return it” and therefore service was “proper
under FRCP rule 4.” (SAppx915; SAppx920-921.)
Inexplicably, the Khans also asserted that they
had “never stated that venue for non-Illinois
resident[s] is proper in the Northern District of
Illinois” (SAppx918), even though they had argued
exactly that (SAppx260; SAppx269; SAppx273;
SAppx277) and even though they had opposed the
non-Illinois physicians’ motions to dismiss for
improper venue (SAppx699-701; SAppx743-745;
- 20 -

SAppx697). Indeed, the Khans then repeated their
rejected arguments that venue was proper under 28
U.S.C. § 1391(g) and 28 U.S.C. § 1404(a).
(SAppx918.) The Khans also added new baseless
arguments, asserting that “venue, improper service,
and misjoinder are not sanctionable issues” because
they are “ancillary” to the issue of infringement.
(SAppx922.) This was the Khans’ fifth filing opposing
sanctions in which they did not object to the
movants’ failure to serve the sanctions motion before
filing it. (SAppx915-925.)
When Merit’s counsel moved to strike the
Khans’ flurry of new filings, the Khans filed three
more papers, again arguing that their infringement
case was not frivolous and that “the ancillary issues
of venue, service and misjoinder…are not
sanctionable under the law.” (SAppx989; SAppx990;
SAppx991.) These papers were the Khans’ sixth,
seventh, and eighth filings opposing sanctions, and
none of them contained an objection to the movants’
failure to serve the sanctions motion before filing it.
(SAppx989; SAppx990; SAppx991.)
The Khans then moved their antics to state
court, filing petitions falsely alleging that Merit’s
counsel had perpetrated non-consensual sexual acts
against them and that Merit’s counsel had illegally
stalked them. (SAppx992-993; SAppx997-1004;
SAppx1008-1016; SAppx1020-1037; SAppx10521065.) After Merit’s counsel demanded that the
Khans retract the petitions and inform the state
court that the allegations were false, the Khans
admitted that the non-consensual sex act petition
was improper and dismissed it. (SAppx1009-1014.)
The state court denied the stalking petition sua
- 21 -

sponte because it did “not meet the standards
provided by the statute.” (SAppx1014, ¶26;
SAppx1059.) Merit’s counsel notified the district
court of these filings to further demonstrate the
Khans’ “unlimited capacity to make preposterous
allegations of fact and law.” (SAppx993.)
Having failed in Illinois, the Khans filed a
complaint with the Utah State Bar, alleging that the
mere fact that Merit’s counsel had sent written
communications to them was improper and
demanding that he be disbarred, even though the
district court had pointed out that “as pro se
Plaintiffs, Defendants’ counsel had no choice but to
correspond
with
them
directly.”
(SAppx22;
SAppx1692-1706; SAppx1757-1761; SAppx17641766.) The Utah State Bar dismissed the complaint a
few weeks later. (SAppx1767-1769.)
L. The District Court’s July 15, 2019 Order
and July 24, 2019 Judgment Quantifying
Rule 11 Sanctions
The district court issued an order awarding as
sanctions the full amount of attorney fees expended
by Merit on the six motions to dismiss and the
motion for sanctions. 2019 WL 10947306 (N.D. Ill.
No. 1:18-cv-05368, July 15, 2019, ECF No. 175)
(reproduced at Appx F). The court explained that
“[s]ince the filing of the Complaint in this matter,
Plaintiffs have exhibited a complete disregard of the
Court’s procedures, Federal Rules, and controlling
precedent” and that “[s]uch actions have not abated.”
Id. at *1. “Instead, Plaintiffs have continued to
pepper the Court’s docket with unsolicited filings
while attempting to advance arguments that have
long been deemed wholly irrelevant.” Id.
- 22 -

The court then determined that Merit’s
counsel’s fees were reasonable. Id. at *1-*2. The
court explained that the Khans’ assertion that “the
reasonable cost…is at most $1000-$2000” was a
“bald assertion” that did not take into account the
complexity of patent cases generally nor the fact that
the Khans had made this case more complex by
“choosing to sue more than 300 defendants from
across the country in a single venue all the while
ignoring consistent warnings from the Court and
opposing counsel.” Id. at *2. The court concluded
that “[t]he time spent by counsel on this case is a
direct reflection of how Plaintiffs chose to conduct
themselves throughout this litigation.” Id.
The Khans filed a request for reconsideration,
again arguing that “improper service, misjoinder,
and improper venue are not related to the merit of
the claims.” (SAppx1066.) The Khans also argued
that their claims for infringement were not frivolous.
(SAppx1067.) This was the Khans’ ninth filing
opposing sanctions in which they did not object to the
movants’ failure to serve the sanctions motion before
filing it. (SAppx1066-1068.)
The court then entered judgment in favor of
Merit and against the Khans in the amount of the
sanctions. (SAppx23) (reproduced at Appx G). It also
held a hearing the next day on the Khans’ request
for reconsideration, where the Khans repeated the
arguments made in their filing. (SAppx1075-1079,
2:25-6:19.) At the hearing, the Court denied the
motion for reconsideration, explaining to the Khans:
“[O]ver and over again my rulings have been telling
you that there is a place where you must bring your
case, and this is not the appropriate place under the
- 23 -

law…. We have procedures. We have rules. And I
warned you over and over and over again, both orally
and in my written rulings. …I sanctioned you for not
listening to my court orders.” (SAppx1079-1086, 6:2010:15, 13:23-25; see also SAppx1071.)
M. Merit’s Motion for Attorney Fees Under
35 U.S.C. § 285
Merit then filed a motion, on behalf of itself and
as equitable subrogee for the physicians it had
indemnified, for an award of its attorney fees under
35 U.S.C. § 285. (SAppx1088-1107.) Merit’s motion
was based on the weakness of the Khans’ litigation
positions and the unreasonable manner in which
they had litigated the case. (SAppx1095-1104.) Merit
did not seek a double recovery of the $95,966.90
already awarded as Rule 11 sanctions. Instead, it
sought that amount only conditionally, i.e., if the
sanctions were disturbed on appeal. Merit also
sought an additional $292,693 in fees expended on
the remainder of the case. (SAppx1092; SAppx11041106.)
In response, the Khans first argued that Merit’s
attorney-fee motion should be denied because the
Khans’ appeal from the judgment dismissing the
complaint was pending. (SAppx1771.) Merit cited
basic case law holding that a court may award
attorney fees after judgment has been entered and
an appeal is pending. (SAppx1772-1776.) The Khans
then reversed course, admitting that they
“absolutely recognize the authority of the Hon. Court
to award attorney fees after judgment has been
entered.” (SAppx1780.)

- 24 -

The Khans did not participate in the process
established by the court’s local rules allowing them
to challenge the reasonableness of the fees sought by
Merit, nor did their papers dispute the
reasonableness of those fees. (SAppx1785-1790;
SAppx1125-1126,
¶¶40-43;
SAppx1223-1227;
SAppx1295-1301.) Nor did the Khans provide any
response regarding the unreasonable manner in
which they had litigated the case, raising only the
same (and some additional) frivolous arguments that
confirmed the weakness of their litigation positions.
(SAppx1785-1790; SAppx1799-1810.) For example,
the Khans’ response cited this Court’s decision in
Octane Fitness, LLC v. Icon Health & Fitness, Inc.,
572 U.S. 545 (2014) for the proposition reversed in
that case. (SAppx1787; SAppx1806-1807.)
The district court, however, denied Merit’s § 285
motion on grounds not argued by the Khans.
(SAppx24) (reproduced as Appx H). The court denied
Merit’s request for a conditional award of the
$95,966.90 in fees already awarded as sanctions
because it did not want to rule on “a set of
hypothetical circumstances.” Id. The court also
denied Merit’s request for additional fees because it
concluded the fees awarded as sanctions were
sufficient. Id. Specifically, the court reasoned that
Merit’s motion “cites largely identical conduct that
was previously before the Court on the…motion for
sanctions” and that the court had “already
extensively considered this conduct in determining
whether sanctions were appropriate.” Id. The court
concluded that “[t]he previous sanctions amount…is
appropriate and reasonable given Plaintiffs conduct
in the case,” but reasoned that the Khans’ conduct
did not “justify a more than three-fold increase in the
- 25 -

fees awarded.” Id. It therefore concluded that “the
extraordinary step of deeming the case ‘exceptional’
is not warranted.” Id. Merit timely filed a notice of
cross appeal from the district court’s denial of its
Section 285 motion. (SAppx1819.)
N. Federal Circuit Appeal
On appeal to the Federal Circuit, the Khans
challenged the district court’s dismissal of their
complaint for insufficient service, improper venue,
improper joinder, and/or want of prosecution. (Fed.
Cir. Appeal No. 19-1952, ECF No. 38.) In their first
opening brief, the Khans also challenged the court’s
award of sanctions but did not challenge the
sanctions on the ground that the movants had failed
to serve the sanctions motion before filing it. Id. The
clerk’s office rejected the Khan’s first brief for failure
to comply with the court’s rules, and the Khans filed
a second brief. In that brief, the Khans again failed
to challenge the sanctions based on failure to serve
the motion before filing it. (ECF No. 58.) The clerk’s
office again rejected the second brief. It was not until
the Khans filed their third opening brief that they
first challenged the sanctions on grounds that the
movants had failed to serve the motion before filing
it. (ECF No. 72, p. 20.)
In response, Merit pointed out that the Khans
had not objected in the district court on that ground
and had therefore forfeited the argument. (ECF No.
85, p. 66.) Merit also explained that under Seventh
Circuit precedent, serving a letter containing the
grounds for the sanctions motion constituted
“substantial compliance” with the requirement to
serve the motion and was sufficient. Id. Merit
pointed out that the Khans had been served with
- 26 -

several such letters more than 21 days prior to filing
the sanctions motion and therefore the Seventh
Circuit’s requirements had been satisfied. Id.
In support of its cross appeal, Merit argued that
the district court had abused its discretion in failing
to award additional fees under 35 U.S.C. § 285 by
basing its conclusion on clearly erroneous factual
findings and/or an erroneous legal view that Rule 11
sanctions and an award of fees under Section 285 are
mutually exclusive. Id. at 78-85. Merit also argued
that if the Rule 11 sanctions were reversed on
appeal, the denial of the motion for fees under
Section 285 must be vacated given the district court’s
reasons for rejecting that motion. Id. at 85.
Specifically, Merit argued: “[T]he entire premise for
the court’s denial of Merit’s attorney-fee motion was
its grant of fees pursuant to the Rule 11 motion.” Id.
Therefore, “[i]f the Rule 11 award is disturbed on
appeal, the denial of the award of fees under section
285 should be vacated as well so that the court can
reconsider the attorney-fee motion in light of the
absence…of the Rule 11 sanctions.” Id.
The Federal Circuit affirmed the district court
in all respects. Khan v. Hemosphere Inc., 825 Fed.
Appx. 762 (Fed. Cir. 2020) (reproduced at Appx. A).
On the issue of sanctions, the Federal Circuit
explained that it applies regional circuit law to nonpatent issues, here the law of the Seventh Circuit,
and concluded that the movants had provided
adequate notice to the Khans under the Seventh
Circuit’s precedents. Id. at 770-71. The Federal
Circuit did not address Merit’s argument that the
Khans had forfeited their challenge on that issue. Id.

- 27 -

On the issue of Merit’s Section 285 motion, the
Federal Circuit concluded that the court had not
abused its discretion in denying additional attorney
fees. Id. at 772-73. Because it affirmed the Rule 11
sanctions, the Federal Circuit did not reach Merit’s
conditional argument asking for vacatur of the denial
of the Section 285 motion in the event the sanctions
were disturbed on appeal. Id.
After the Federal Circuit’s decision, the Khans
filed a petition for rehearing again challenging the
award of sanctions, which the Federal Circuit
denied. (ECF Nos. 140, 153.)
The Khans have now petitioned for a writ of
certiorari in Case No. 20-773, challenging the award
of sanctions on grounds that they were not served
with the sanctions motion before it was filed. If this
Court grants the Khans’ petition and reverses the
award of sanctions, this cross-petition simply asks
the Court, in fairness, to also vacate the Federal
Circuit’s affirmance of the district court’s denial of
Merit’s Section 285 motion.
REASONS FOR GRANTING
THE CROSS-PETITION
This Court “may affirm, modify, vacate, set
aside or reverse any judgment, decree, or order of a
court lawfully brought before it for review, and may
remand the cause and direct the entry of such
appropriate judgment, decree, or order, or require
such further proceedings to be had as may be just
under the circumstances.” 28 U.S.C. § 2106. In
determining what “may be just under the
circumstances,” this Court considers “the changes in
- 28 -

fact and in law which have supervened since [a]
decree was entered below.” Watts, Watts & Co. v.
Unione Austriaca Di Navigazione, 248 U.S. 9, 21
(1918).
For example, this Court often issues a GVR
order vacating the judgment of a court of appeals
where there are “intervening developments, or recent
developments that [there is] reason to believe the
court below did not fully consider,” where those
developments “reveal a reasonable probability that
the decision below rests upon a premise that the
lower court would reject if given the opportunity for
further consideration,” and where “it appears that
such a redetermination may determine the ultimate
outcome of the litigation.” Lawrence v. Chater, 516
U.S. 163, 167 (1996). The “intervening development”
is often a decision of this Court. Id. at 166, 169-70;
accord id. at 180-81 (Scalia, J., dissenting) (collecting
cases).
A fortiori, if there is an intervening
development—such as a decision of this Court—that
the court below did not consider (because it could not
have been considered), where the decision below
clearly does rest upon a premise that this Court’s
intervening decision has rejected, and where a
redetermination by the court of appeals may
determine the ultimate outcome of the litigation, the
outcome that is most “just under the circumstances”
(as 28 U.S.C. § 2106 requires) is to vacate the
judgment of the court below and remand for further
consideration in light of this Court’s intervening
decision.
Here, fairness dictates that if this Court grants
certiorari in Case No. 20-773 and issues a decision
- 29 -

vacating or reversing that portion of the Federal
Circuit’s judgment affirming the district court’s
grant of Rule 11 sanctions, it would only be “just
under the circumstances” to also vacate that portion
of the Federal Circuit’s judgment affirming the
district court’s denial of Merit’s motion for attorney
fees under Section 285. This is because these two
aspects of the Federal Circuit’s judgment are
intertwined.
These two aspects of the Federal Circuit’s
judgment are inextricably intertwined because the
district court premised resolution of one on
resolution of the other. At least one of the district
court’s premises for denying Merit’s motion for
attorney fees under Section 285—indeed, the main
premise—was the fact that it had already granted an
award of attorney fees as Rule 11 sanctions and
considered that award to be sufficient. (SAppx24)
(reproduced as Appx H). Specifically, the district
court reasoned that Merit’s Section 285 motion “cites
largely identical conduct that was previously before
the Court on the…motion for sanctions” and that the
court had “already extensively considered this
conduct in determining whether sanctions were
appropriate.” Id. The district court concluded that
“[t]he previous sanctions amount…is appropriate
and reasonable given Plaintiffs conduct in the case,”
but reasoned that the Khans’ conduct did not “justify
a more than three-fold increase in the fees awarded.”
Id. It therefore concluded that “the extraordinary
step of deeming the case ‘exceptional’ is not
warranted.” Id. If this Court grants certiorari in
Case No. 20-773 and reverses or vacates that portion
of the Federal Circuit’s judgment affirming the
district court’s grant of Rule 11 sanctions, then at
- 30 -

least one premise—and in fact, the main premise—of
the district court’s denial of Merit’s Section 285
motion will no longer be applicable. In that scenario,
the district court must be given the opportunity to
decide whether to grant Merit’s Section 285 motion
in the absence of any Rule 11 sanctions.
The district court also denied Merit’s request for
a conditional award of the $95,966.90 in fees that the
court had already awarded as sanctions because it
did not want to rule on “a set of hypothetical
circumstances.” Id. If this Court grants certiorari in
Case No. 20-773 and reverses or vacates that portion
of the Federal Circuit’s judgment affirming the
district court’s grant of Rule 11 sanctions, then the
“hypothetical circumstances” to which the district
court referred will no longer be hypothetical. In that
scenario, the district court must in fairness be given
the opportunity to decide whether to grant Merit’s
Section 285 motion under those circumstances.
In Octane Fitness, LLC v. Icon Health & Fitness,
Inc., 572 U.S. 545 (2014), this Court explained that
an “exceptional case,” for purposes of Section 285, is
one that is “‘uncommon,’ ‘rare,’ or ‘not ordinary’” and
“‘not run-of-the-mill.’” Id. at 553-54. Explaining the
concept further, this Court held that an “exceptional
case” includes one “that stands out from others with
respect to the substantive strength of a party's
litigating position (considering both the governing law
and the facts of the case) or the unreasonable manner
in which the case was litigated.” Id. at 554. Given the
Khans’ egregious behavior in this case as detailed
above and given the district court’s reasoning
denying Merit’s Section 285 motion, it is highly likely
that in the absence of any Rule 11 sanctions, the

- 31 -

district court would determine that an award of
attorney fees would be warranted under Section 285
because of the weakness of the Khans’ “litigation
position[s]” and “the unreasonable manner” in which
they litigated the case. Id.
Thus, if this Court grants certiorari in Case No.
20-773 and reverses or vacates that portion of the
Federal Circuit’s judgment affirming the district
court’s grant of Rule 11 sanctions, the result that
would be most “just under the circumstances” would
be to also vacate that portion of the Federal Circuit’s
judgment affirming the district court’s denial of
Merit’s motion for attorney fees under Section 285.
Merit preserved this argument before the
Federal Circuit. Merit cross appealed from the
district court’s denial of Merit’s Section 285 motion.
(SAppx1819.) In support of its cross appeal, Merit
argued that if the Rule 11 sanctions award were
disturbed on appeal, the district court’s denial of
Merit’s Section 285 motion should also be vacated.
(Fed. Cir. Appeal No. 19-1952, ECF No. 85, p. 85.)
The Federal Circuit did not reach that argument
because it affirmed the award of Rule 11 sanctions.
825 Fed. Appx. at 770-71.
This Court frequently remands for the courts of
appeals to consider issues that they did not reach.
E.g., Buzynski v. Luckenbach S.S. Co., 277 U.S. 226,
228-29 (1928); MedImmune, Inc. v. Genentech, Inc.,
549 U.S. 118, 136 (2007). If this Court grants
certiorari in Case No. 20-773 and reverses or vacates
that portion of the Federal Circuit’s judgment
affirming the district court’s grant of Rule 11
sanctions, then that portion of the Federal Circuit’s
judgment affirming the district court’s denial of
- 32 -

Merit’s Section 285 motion should also be vacated so
that, on remand, the Federal Circuit has the
opportunity to reach Merit’s argument.
CONCLUSION
For the reasons set forth above, if this Court
grants certiorari in Case No. 20-773, the Court
should also grant certiorari on this cross-petition. If
the petition for certiorari in Case No. 20-773 is
denied, this cross-petition should also be denied.
Respectfully submitted,
DAVID R. TODD
Counsel of Record
BRENT P. LORIMER
WORKMAN NYDEGGER
60 E. South Temple, Suite 1000
Salt Lake City, Utah 84111
Telephone: (801) 533-9800
Email: dtodd@wnlaw.com
Attorneys for
Merit Medical Systems, Inc.
March 25, 2021

- 33 -



APPENDIX



TABLE OF CONTENTS
APPENDIX A

August 13, 2020 Opinion of the
U.S. Court of Appeals for the
Federal Circuit................................ 1a

APPENDIX B

January 23, 2019 Order of the
U.S. District Court for the
Northern District of Illinois ......... 23a

APPENDIX C

February 13, 2019 Order of the
U.S. District Court for the
Northern District of Illinois ......... 28a

APPENDIX D May 16, 2019 Memorandum
Opinion and Order of the U.S.
District Court for the Northern
District of Illinois .......................... 32a
APPENDIX E

May 16, 2019 Judgment of the
U.S. District Court for the
Northern District of Illinois ......... 45a

APPENDIX F

July 15, 2019 Order of the U.S.
District Court for the Northern
District of Illinois .......................... 47a

APPENDIX G July 24, 2019 Judgment of the
U.S. District Court for the
Northern District of Illinois ......... 52a
APPENDIX H September 4, 2019 Minute Entry
of the U.S. District Court for the
Northern District of Illinois ......... 53a
APPENDIX I

November 6, 2020 Order of the
U.S. Court of Appeals for the
Federal Circuit.............................. 56a

APPENDIX A
NOTE: This disposition is nonprecedential.

United States Court of Appeals
for the Federal Circuit
________________________
NAZIR KHAN, IFTIKHAR KHAN,
Plaintiffs- Appellants
v.
HEMOSPHERE INC., ET AL.,
Defendants-Appellees
MERIT MEDICAL SYSTEMS INC.,
Defendant-Cross-Appellant
HOSPITALS AND DOCTORS IMPLANTING
UNPATENTED HERO GRAFT TO DOCTORS,
ET AL.,
Defendants
________________________
2019-1952, 2019-2394
________________________
Appeals from the United States District Court for the
Northern District of Illinois in No. 1:18-cv-05368,
Judge Virginia M. Kendall

- 1a -

se.

NAZIR KHAN, IFTIKHAR KHAN, Burr Ridge, IL, pro

BRENT P. LORIMER, Workman Nydegger, Salt
Lake City, UT, for defendant-cross-appellant and
defendants-appellees Willaim J. Tapscott, James W.
Campbell, Heather LeBlanc, Lee Forestiere, Edward
Kim, Joy Garg Kaiser Permanente, Marius Saines,
Gustavo Torres, Charles M. Eichler, Eric Ladenheim,
Robert S. Brooks, Anne Lally, Matthew G. Brown,
Abilio Coello, Howard E. Katzman, Stephen Wise
Unger, Fernando Kafie, Robert Hoyne, Robert
Brumberg, Murray L. Shames, Victor Bowers, Heidi
A. Pearson, Jeffrey Pearce, Michael Klychakin,
William Schroder, Jonathan R. Molnar, Christopher
Wixon, Julio Vasquez, William Soper, Jeffrey Silver,
Stephen Jensik, Gary Lemmon, Raghu L.
Motagnahalli, Ruban Nirmalan, Chase Tattersall,
William Ducey, Michael Willerth, Dennis Fry,
Jeffrey Cameron, David Smith, Amit Dwivedi,
Joseph Griffin, Albert Sam, Andrew Sherwood, Larry
D. Flanagan, Thomas Reifsnyder, David B. Leeser,
Andres Schanzer, Robert Molnar, Peter Wong,
Kourosh Baghelai, Howard L. Saylor, Ty Dunn,
William Omlie, James R. Rooks, Timothy C. Hodges,
Eddy Luh, Pankaj Bhatnagar, Benjamin Westbrook,
Yvon R. Baribeau, George Blessios, Gary
Tannenbaum, Jason Dew, Jason Burgess, Paul
Orland, James D. Lawson, Todd Early, Randal Bast,
Clinton Atkinson, Jeff Stanley, Virginia Wong,
Damian Lebamoff, Jonathan Velasco, Boris Paul,
Walter Rizzoni, Jon R. Henwood, Carlos Rosales,
Ellen Dillavou, Eugene Simoni, Alexander Uribe,
Edward Beverly Morrison, Michael Gallichio, Angelo
Santos, Chad Laurich, Eric Gardner, Stephen Settle,
Blair Jordan, Tuan-Hung Chu, Stephen Hohmann,
- 2a -

John C. Kedora, Hector Diaz-Luna, Luis G.
Echeverri, Allen Hartsell, Jeffrey Martinez, Gerardo
Ortega, Boulos Toursarkissian, Todd Smith,
Mountain Medial Physician Specialists, Thomas
Ross, Matthew J. Borkon, W. Andrew Tierney,
Thomas Hatsukami, Herbert Oye, Thomas Winek,
Allan Roza, Ignacio Rua, Sheppard Mondy, Alok K.
Gupta, Brad Grimsley. Also represented by DAVID R.
TODD, THOMAS R. VUKSINICK.
STEVEN MCMAHON ZELLER, Dykema Gossett
PLLC, Chicago, IL, for defendants-appellees
Hemosphere Inc., CryoLife Inc.
PATRICK R. JAMES, James, House, Downing &
Lueken, PA, Little Rock, AR, for defendant-appellee
Louis Elkins.
BRIAN DAVID SCHMALZBACH, McGuireWoods LLP,
Richmond, VA, for defendants-appellees Mark Grove,
Javier Alvarez-Tostado. Also represented by
KATHRYN ANN CAMPBELL, EDWIN E. BROOKS, SARAH
RASHID, Chicago, IL.
JENNIFER KURCZ, Baker & Hostetler LLP,
Chicago, IL, for defendant-appellee Siddarth Patel.
Also represented by ALAINA J. LAKAWICZ,
Philadelphia, PA.
DAVID ALAN ROODMAN, Bryan Cave Leighton
Paisner LLP, St. Louis, MO, for defendants-appellees
Luis Sanchez, Patrick Geraghty. Also represented by
BARBARA SMITH, JASON MEYER.
_________________________
- 3a -

Before PROST, Chief Judge, MOORE and STOLL,
Circuit Judges.
STOLL, Circuit Judge.
These appeals arise from an action for patent
infringement. Drs. Nazir Khan and Iftikhar Khan
accused Hemosphere Inc., CryoLife Inc., and Merit
Medical Systems, Inc., along with over 300 hospitals
and individual physicians, of infringing a claim of
U.S. Patent No. 8,747,344, directed to an
arteriovenous shunt. The Khans challenge the
district court’s decision dismissing the action with
prejudice for want of prosecution due to the Khans’
insufficient and untimely service of their complaint
and, alternatively, for improper venue and
misjoinder. The Khans also challenge the district
court’s decisions granting the defendants’ motion for
sanctions and denying the Khans’ cross-motion for
sanctions. Merit Medical cross-appeals the district
court’s decision denying its motion to declare the
case exceptional and to award attorney fees under 35
U.S.C. § 285. Because the district court did not abuse
its discretion in dismissing the action, granting the
defendants’ sanctions motion, denying the Khans’
sanctions motion, or denying Merit Medical’s motion
for attorney fees under § 285, we affirm.
BACKGROUND
The Khans are Illinois physicians and have
exclusive rights to the ’344 patent. In their complaint
filed on August 7, 2018, the Khans alleged that the
defendant corporations, hospitals, and physicians
directly and indirectly infringed claim 13 of the ’344
- 4a -

patent by manufacturing or implanting into patients
the accused HeRO® Graft shunt. The Khans sent a
waiver of service of summons form and their
complaint by mail to the over 300 defendants, the
vast majority of whom resided and practiced outside
of Illinois. With the exception of three physicians,
none of the defendants returned a completed waiver
form.
Following an initial status conference in
November 2018, the district court dismissed without
prejudice the Khans’ claims against Merit Medical,
CryoLife, and three physicians for improper venue.
Order at 2–3, Khan v. Hemosphere Inc., No. 18-cv05368 (N.D. Ill. Jan. 23, 2019), ECF No. 76.
According to the district court, the Khans had not
contended that any of these defendants resided in
the Northern District of Illinois, and the Khans had
failed to plausibly allege that any of them infringed
the asserted claim in the district and had a “regular
and established place of business” in the district, as
required under 28 U.S.C. § 1400(b). Id. at 2. The
district court “caution[ed] plaintiffs to take heed of
the potentially meritorious arguments raised by
defendants thus far in considering the proper and
most effective way to prosecute their case going
forward.” Id. at 3. The district court also held its
second status conference that same day. While the
Khans insisted at the conference that they had
completed proper service for all defendants, by that
date—more than 150 days after the filing of the
complaint—they had filed proof of waiver for only
one defendant. In response to the Khans’ argument
that placing the waiver request in the mail is
equivalent to service, the district court informed the
Khans that a request to waive service is merely a
- 5a -

request and that waiver by the defendants is not
mandatory.
The district court subsequently denied the Khans’
motion to reconsider the dismissal order because the
motion
“impermissibly
rehash[ed]
previously
unsuccessful arguments.” Order at 2, Khan v.
Hemosphere Inc., No. 18-cv-05368 (N.D. Ill. Feb. 13,
2019), ECF No. 84. The district court “again
caution[ed] Plaintiffs that prosecuting a patent case
of any size, much less one against three hundred
defendants, is a complex endeavor,” and that they
“should carefully evaluate clearly established
requirements set forth in governing statutes and
other applicable authority so as not to unnecessarily
occupy the time and resources of the Court and other
involved parties.” Id.
Thereafter, more than 100 of the remaining
defendants filed 11 separate motions to dismiss on
various grounds, including insufficient service,
untimely service, improper venue, misjoinder, and
lack of personal jurisdiction. A subset of the nonIllinois-resident defendants also moved for sanctions
against the Khans pursuant to Rule 11 of the
Federal Rules of Civil Procedure for the Khans’
repeated assertions that venue was proper and that
service was properly completed. The district court
granted the motions and dismissed the claims
against the defendants for want of prosecution. Khan
v. Hemosphere Inc., No. 18-cv-05368, 2019 WL
2137378, at *1 (N.D. Ill. May 16, 2019).
The district court held that dismissal of
remaining defendants was warranted due to
Khans’ “insufficient and untimely attempts
service.” Id. at *2. The district court rejected
- 6a -

all
the
at
the

Khans’ argument that they had complied with the
requirements of Rule 4 of the Federal Rules of Civil
Procedure by simply requesting waivers from the
defendants. Id. The district court also found that the
Khans had not attempted to personally serve any
defendant. Id. Instead, the Khans asserted that they
completed service by mailing the summons and
complaint to the defendants, despite contrary
instruction from the district court. The district court
explained that Rule 4(e) does not permit personal
service via mail and the Khans had not identified
any state laws that would otherwise allow service by
mail. Id. The district court further found that the
Khans had failed to comply with the timeliness
requirement of Rule 4(m). Id. at *3. In addition, the
district court held that dismissal was warranted on
the alternative grounds of improper venue under §
1400(b) and improper joinder under 35 U.S.C. § 299.
Id.
Next, the district court granted the non-Illinoisresident defendants’ motion for sanctions based on
the Khans’ assertions regarding venue and service,
which they had maintained despite repeated
warnings and guidance from the court. Id. at *4–5.
The district court recognized that the Khans were
proceeding pro se and thus were “entitled to some
leniency before being assessed sanctions for frivolous
litigation.” Id. at *5 (quoting Thomas v. Foster, 138
F. App’x 822, 823 (7th Cir. 2005)). But the district
court explained that the Khans “not only acted in
direct contravention to clear procedural rules,
statutes, and governing law, but continued to do so
after being repeatedly warned at hearings by the
Court, in written orders, and in correspondence with
defense counsel.” Id. The district court thus found
- 7a -

that it was “more than objectively reasonable to
believe that the [Khans] should have known their
positions on venue and service were groundless.” Id.
Accordingly, the district court ordered the Khans to
pay attorney fees associated with the defendants’
filing fees, motions to dismiss, and motion for
sanctions in the amount of $95,966.90. Order at 1,
Khan v. Hemosphere Inc., No. 18-cv-05368 (N.D. Ill.
July 15, 2019), ECF No. 175.
For their part, the Khans moved for sanctions
against the physician defendants and their attorneys
for alleged violations of Rule 11(b). The district court
denied the motion on the ground that the Khans
failed to provide proper notice to the defendants of
their motion under Rule 11(c) or properly present
their motion to the court as required by the court’s
local rules. Id. at 3. The district court later denied
the Khans’ motion for reconsideration of the court’s
dismissal and sanctions orders.
Merit Medical thereafter moved the district court
to declare the case exceptional and to award attorney
fees under § 285 in the amount of $292,693. The
district court denied the motion. Minute Entry, Khan
v. Hemosphere Inc., No. 18-cv-05368 (N.D. Ill. Sept.
4, 2019), ECF No. 213. The district court found that
the motion “cite[d] largely identical conduct that was
previously before the Court on the initial motion for
sanctions,” and that “[t]he Court ha[d] already
extensively considered this conduct in determining
whether sanctions were appropriate and indeed
ruled in Defendants[’] favor on this matter.” Id. The
district court also found that, although the Khans
had “litigated this case in an unorthodox manner,”
none of their conduct following the court’s grant of
- 8a -

sanctions could be considered “exceptional.” Id. The
Khans and Merit Medical appeal. We have
jurisdiction pursuant to 28 U.S.C. § 1295(a)(1).
DISCUSSION
The Khans request that this court reverse the
decisions of the district court dismissing their
complaint, granting sanctions against the Khans,
and denying the Khans’ motion for sanctions. Merit
Medical cross-appeals, seeking a reversal of the
district court’s order denying its motion for attorney
fees under § 285. For the reasons discussed below,
we discern no abuse of discretion in the district
court’s rulings and, accordingly, we affirm.
I
We first consider the Khans’ challenge to the
district court’s dismissal of their complaint for
failure to effectuate proper and timely service on the
defendants as required under Rule 4 and,
alternatively, for improper venue.
A
We apply the law of the regional circuit, here the
Seventh Circuit, in resolving whether a district court
properly dismissed a case for want of prosecution.
See Bowling v. Hasbro, Inc., 403 F.3d 1373, 1375
(Fed. Cir. 2005). The Seventh Circuit reviews a
district court’s dismissal for want of prosecution for
an abuse of discretion. Williams v. Illinois, 737 F.3d
473, 476 (7th Cir. 2013); see also Cardenas v. City of
Chicago, 646 F.3d 1001, 1005 (7th Cir. 2011) (a
district court’s dismissal based on untimely service of
process is reviewed for an abuse of discretion).

- 9a -

“A district court may not exercise personal
jurisdiction over a defendant unless the defendant
has been properly served with process, and the
service requirement is not satisfied merely because
the defendant is aware that he has been named in a
lawsuit or has received a copy of the summons and
the complaint.” United States v. Ligas, 549 F.3d 497,
500 (7th Cir. 2008) (citations omitted). Rule 4
specifies acceptable methods for service. For
instance, a plaintiff may request a waiver of service
from a defendant by mailing a copy of the complaint,
two copies of the waiver form, and a prepaid means
for returning the form. Fed. R. Civ. P. 4(d). “But if
the defendant does not waive service and if no
federal statute otherwise supplies a method for
serving process, then Rule 4(e)’s list of methods is
exclusive.” Ligas, 549 F.3d at 501. Those methods
consist of “following state law for serving a summons
in an action brought in courts of general jurisdiction
in the state where the district court is located or
where service is made”; “delivering a copy of the
summons and of the complaint to the individual
personally”; “leaving a copy of each at the
individual’s dwelling or usual place of abode with
someone of suitable age and discretion who resides
there”; and “delivering a copy of each to an agent
authorized by appointment or by law to receive
service of process.” Fed. R. Civ. P. 4(e). “Unless
service is waived, proof of service must be made to
the court.” Fed. R. Civ. P. 4(l)(1).
Rule 4 also provides that “[i]f a defendant is not
served within 90 days after the complaint is filed, the
court—on motion or on its own after notice to the
plaintiff—must dismiss the action without prejudice
against that defendant or order that service be made
- 10a -

within a specified time.” Fed. R. Civ. P. 4(m). “[I]f the
plaintiff shows good cause for the failure,” however,
“the court must extend the time for service for an
appropriate period.” Id. A district court has the
discretion to dismiss a complaint with prejudice “for
want of prosecution if the plaintiff’s delay in
obtaining service is so long that it signifies failure to
prosecute.” Williams, 737 F.3d at 476 (citations
omitted). A defendant may move to dismiss based on
the court’s lack of personal jurisdiction, the
insufficiency of process, or the insufficiency of service
of process. Fed. R. Civ. P. 12(b)(2), (4), (5).
Here, the district court properly exercised its
discretion in dismissing the Khans’ complaint due to
their insufficient and untimely attempts at service.
Although the Khans endeavored to obtain waivers
from all of the defendants, with very few exceptions,
the defendants did not return signed waiver forms.
Thus, the Khans were required to serve the nonwaiving defendants by the other methods set forth
under Rule 4(e). See Ligas, 549 F.3d at 501. As the
district court correctly observed, the Khans’ mailing
of the complaint and the summons does not
constitute service under Rule 4(e).
The Khans argue that each defendant had a duty
under Rule 4 to sign the waiver form and return it
within 30 days or otherwise show good cause for not
doing so. Appellants’ Br. 13, 15. They contend that
“service is complete when the signed waiver form is
returned by the defendant and filed by the plaintiff
for entry into the District Court.” Id. at 13. In their
view, the district court lacked jurisdiction to decide
the motions to dismiss because the defendants did

- 11a -

not return the waiver forms back to the Khans. Id. at
15–16.
The Khans misinterpret the provisions of Rule 4.
While Rule 4(d) obligates defendants “to avoid
unnecessary expenses of serving the summons,” it
does not require defendants to waive formal service.
Fed. R. Civ. P. 4(d)(1). Nor did the defendants’
decisions to forgo waiving service in this case strip
the district court of its authority to decide the
motions to dismiss on the basis of insufficient
service. The Khans cite subsection (e) of Illinois
statute 735 ILCS 5/2-201, in conjunction with Rule
4(e)(1), as permitting service by mail, but subsection
(e) of Illinois statute 735 ILCS 5/2-201 does not
appear to exist. The Khans also cite subsection (e) of
Illinois statute 735 ILCS 5/2-202, but this subsection
concerns the housing authority police force’s service
of process for eviction actions and is thus
inapplicable to this civil action. The Illinois statute
that governs service of individuals in civil actions is
735 ILCS 5/2-203, which does not allow service by
mail. Absent proof under Rule 4(l) that proper
service was made on any of the nonwaiving
defendants, the district court properly held that the
Khans had failed to provide proper service.
The district court also correctly concluded that
the Khans failed to comply with Rule 4(m)’s
timeliness requirement. In the more than 250 days
between the filing of the complaint and the district
court’s dismissal decision, nearly all of the over 300
defendants had not been properly served. The
district court did not abuse its discretion in
determining that the Khans did not show good cause
to justify such “extreme delay”—nearly three-fold the
- 12a -

amount of time allotted to complete service. Khan,
2019 WL 2137378, at *3.
Accordingly, we conclude that the district court
was well within its discretion to dismiss the
complaint with prejudice for want of prosecution due
to the Khans’ insufficient and untimely service. B
Turning to the issue of venue, the governing statute
provides that “[a]ny civil action for patent
infringement may be brought in the judicial district
where the defendant resides, or where the defendant
has committed acts of infringement and has a
regular and established place of business.” 28 U.S.C.
§ 1400(b). A “regular and established place of
business” requires a “place of business” in the
district, i.e., “a physical, geographical location in the
district from which the business of the defendant is
carried out.” In re Cray Inc., 871 F.3d 1355, 1362
(Fed. Cir. 2017). The place of business must be the
defendant’s, “not solely a place of the defendant’s
employee.” Id. at 1363. We review de novo the
question of proper venue under § 1400(b). Westech
Aerosol Corp. v. 3M Co., 927 F.3d 1378, 1381 (Fed.
Cir. 2019).
The district court correctly concluded that venue
was improper under § 1400(b). As to Merit Medical,
CryoLife, and the three physicians dismissed earlier
in the action, the district court found that the Khans
had not contended that any of these defendants
resided in the district. The district court also found
that the Khans had failed to plausibly allege that
any of them infringed the asserted claim in the
district or had a “regular and established place of
business” in the district. As to the remaining
defendants, the district court found that the
- 13a -

complaint and related filings were “devoid of any
facts establishing that the infringing acts occurred
in” the district or that the defendants “reside in the
district.” Khan, 2019 WL 2137378, at *3. The district
court also found that the Khans instead “allege[d]
that the acts of infringement took place in the states
in which the Defendants reside,” and that “nearly all
of the Defendants are not residents of Illinois and
are instead scattered throughout the country in
dozens of different states.” Id.
These findings remain largely unchallenged on
appeal. Indeed, the Khans concede that their
complaint names “more than 300 defendants residing
in 43 states and two manufacturers who are on
opposite sides of the country.” Appellants’ Br. 17.
The Khans also admit that “the venue for nonIllinois defendant physicians is improper here.” Id.;
see also id. at 22 (“[T]he plaintiffs made it clear in
our pleadings that the venue is improper for nonIllinois defendant physicians.”); id. at 11 (“The
totality of the record shows that the plaintiffs have
never said that the venue is proper for the 106 nonIllinois defendant physicians.”). The Khans instead
focus their challenge on the district court’s findings
that Merit Medical and CryoLife each lack a “regular
and established place of business” in the district. For
instance, they contend that these corporations have
sales representatives in the district that promote the
accused HeRO® Graft shunt. Id. at 18. But the fact
that certain employees live or conduct business in the
district does not establish proper venue over
defendants in the district. See Cray, 871 F.3d at
1363.

- 14a -

We are also unpersuaded by the Khans’
contention that venue in the district is proper
because it is the most convenient forum to all parties
under 28 U.S.C. § 1404(a). Appellants’ Br. 17.
Section 1404(a) governs transfers of actions to other
judicial districts for convenience; it does not set the
standard for whether venue is proper. Section
1400(b) governs that issue, and the Khans have
failed to convince us that the district court erred in
determining that venue under that statute was
improper.
We have considered the Khans’ other arguments
regarding service and venue, but do not find them
persuasive. Accordingly, we conclude that the district
court did not abuse its discretion in dismissing the
action with prejudice.
II
We next consider the Khans’ challenge to the
district court’s decision granting the non-Illinoisresident defendants’ motion for Rule 11 sanctions.
We apply the law of the regional circuit, here the
Seventh Circuit, to review an award of Rule 11
sanctions. See Eon-Net LP v. Flagstar Bancorp, 653
F.3d 1314, 1328 (Fed. Cir. 2011) (citing Power Mosfet
Techs., L.L.C. v. Siemens AG, 378 F.3d 1396, 1406–
07 (Fed. Cir. 2004)). The Seventh Circuit reviews
decisions regarding Rule 11 sanctions for an abuse of
discretion. Bell v. Vacuforce, LLC, 908 F.3d 1075,
1079 (7th Cir. 2018) (citing Cooter & Gell v.
Hartmarx Corp., 496 U.S. 384, 405 (1990)).
The district court properly exercised its discretion
in sanctioning the Khans under Rule 11(b) for their
frivolous arguments regarding venue and service of
- 15a -

process. The district court found that the Khans had
repeatedly asserted throughout the litigation that
venue was proper in the Northern District of Illinois.
In support of this argument, the Khans relied on this
court’s decision in In re TC Heartland LLC, 821 F.3d
1338 (Fed. Cir. 2016), despite the fact that the
Supreme Court had reversed that decision prior to
the Khans’ lawsuit, see TC Heartland LLC v. Kraft
Foods Grp. Brands LLC, 137 S. Ct. 1514 (2017). The
district court also noted that it had cited the
Supreme Court’s TC Heartland decision both in its
order granting Merit Medical’s and CryoLife’s
motions to dismiss based on improper venue and in
status hearings. Despite this guidance from the
court, the Khans “again raised their baseless
argument in their Motion to Reconsider.” Khan, 2019
WL 2137378, at *4. The district court further found
that the Khans’ complaint “undercut[] any good faith
basis for asserting venue is proper in th[e] district,”
since it alleged that the non-Illinois-resident
defendants’ infringing acts occurred “at their
addresses in their respective states.” Id. (quoting
Complaint at 41, Khan v. Hemosphere Inc., No. 18cv-05368 (N.D. Ill. Aug. 7, 2018), ECF No. 1). Finally,
the district court found that the Khans had
maintained their baseless assertion that service by
mail was sufficient under Rule 4, again despite
contrary guidance from the court. Id. at *5.
The Khans do not challenge any of these factual
findings on appeal. Instead, they contend that
sanctions are inappropriate because the defendants
violated Rule 11(c)(2), which prohibits the filing of a
sanctions motion “if the challenged paper, claim,
defense, contention, or denial is withdrawn or
appropriately corrected within 21 days after service
- 16a -

or within another time the court sets.” Fed. R. Civ. P.
11(c)(2). Specifically, they argue that the defendants
did not serve them with the sanctions motion more
than 21 days prior to filing it with the district court.
But the district court found the opposite—namely,
that the defendants put the Khans “on notice of their
intent to seek sanctions as early as September 24,
2018”—more than five months before they filed their
sanctions motion in March 2019. See Khan, 2019 WL
2137378, at *5. The district court also found that the
Khans were notified on several more occasions before
the defendants moved for sanctions. Id. The Khans
offer no response to the district court’s finding that
the defendants’ “‘early and often’ approach in
corresponding with [the Khans] regarding their
desire to pursue sanctions no doubt satisfies the 21day requirement of Rule 11(c).” Id.; see also Matrix
IV, Inc. v. Am. Nat’l Bank & Tr. Co., 649 F.3d 539,
552–53 (7th Cir. 2011) (concluding that “a letter
informing the opposing party of the intent to seek
sanctions and the basis for the imposition of
sanctions” sent more than two years before the
motion was filed was “sufficient for Rule 11
purposes” (citations omitted)).
The Khans also argue that a sanctions award
cannot be based on their assertions regarding service
and venue because such assertions are “ancillary
issues” that are “unrelated to the merits of the
claim.” Appellants’ Br. 24. The Khans cite Rule 41(b)
of the Federal Rules of Civil Procedure and Moeck v.
Pleasant Valley School District, 844 F.3d 387 (3d Cir.
2016), to support their argument. Id. at 24– 25. Rule
41(b) provides that an involuntary dismissal or other
dismissal except “for lack of jurisdiction, improper
venue, or failure to join a party under Rule 19 . . .
- 17a -

operates as an adjudication on the merits,” Fed. R.
Civ. P. 41(b), but this rule does not preclude
sanctions for frivolous venue and service assertions.
The Khans’ reliance on Moeck is similarly misplaced.
In Moeck, the Third Circuit discerned no error in the
district court’s observations that the defendants’
numerous sanctions motions were a “waste of judicial
resources” and that discovery, motion practice, and
trial were better vehicles than sanctions motions to
determine the truth of a plaintiff’s allegations. 844
F.3d at 389–92 & n.9. Nothing in Moeck suggests,
however, that sanctions are precluded for frivolous
venue and service assertions, even if those assertions
are considered “ancillary” to the merits of a plaintiff’s
infringement claims.
We have considered the Khans’ other arguments,
but do not find them persuasive. Accordingly, we
conclude that the district court did not abuse its
discretion in granting the defendants’ motion for
sanctions.
III
We next consider the Khans’ challenge to the
district court’s denial of their cross-motion for Rule
11 sanctions against the physician defendants and
their attorneys. In their motion, the Khans sought
$250,000 in damages based on the defendants’ and
their attorneys’ alleged violations of Rule 11(b),
including their “inadequate pre-filing investigation”
preceding their sanctions motion and “prosecuti[on]
[of] the case for [the] improper purpose of
harass[ing]” the Khans and “for causing mental
anguish.” Request for Sanctions, Khan v.
Hemosphere Inc., No. 18-cv-05368 (N.D. Ill. June 13,
2019), ECF No. 155.
- 18a -

We conclude that the district court did not abuse
its discretion in denying the Khans’ cross-motion for
sanctions. The district court denied the motion for
failure to comply with the safe harbor provisions of
Rule 11(c) and the requirement of the district court’s
Local Rule 5.3(b) to accompany a motion with “a
notice of presentment specifying the date and time
on which, and judge before whom, the motion or
objection is to be presented.” The Khans do not
address either of these defects on appeal. Instead,
they merely reiterate that the defendant physicians
and their attorneys should be sanctioned for their
assertions that the HeRO® Graft shunt does not
infringe the asserted claim of the ’344 patent and for
filing a motion for sanctions against the Khans.
Under these circumstances, we conclude that the
district court was well within its discretion to deny
the Khans’ cross-motion for Rule 11 sanctions.
IV
Lastly, we turn to Merit Medical’s cross-appeal
from the district court’s decision denying its motion
to declare the case exceptional and to award attorney
fees in the amount of $292,693. “The court in
exceptional cases may award reasonable attorney
fees to the prevailing party.” 35 U.S.C. § 285. “[A]n
‘exceptional case’ is simply one that stands out from
others with respect to the substantive strength of a
party’s litigating position (considering both the
governing law and the facts of the case) or the
unreasonable manner in which the case was
litigated.” Octane Fitness, LLC v. Icon Health &
Fitness, Inc., 572 U.S. 545, 554 (2014). “District
courts may determine whether a case is ‘exceptional’
in the case-by-case exercise of their discretion,
- 19a -

considering the totality of the circumstances.” Id. We
review a district court’s denial of a motion for
attorney fees under § 285 for an abuse of discretion.
Highmark Inc. v. Allcare Health Mgmt. Sys., Inc.,
572 U.S. 559, 561, 564 (2014).
We conclude that the district court did not abuse
its discretion in denying Merit Medical’s motion for
attorney fees under § 285. The district court found
that the conduct described in the motion was largely
identical to the conduct already presented in the
defendants’ earlier sanctions motion and was already
considered by the court in granting sanctions against
the Khans. The district court also determined that,
although the Khans’ litigation strategy was
“unorthodox,” their conduct following the district
court’s grant of sanctions did not rise to the level of
“exceptional.” The district court further found that
the previous sanctions amount of $95,966.90 was
appropriate and reasonable given the Khans’ conduct
in the case, but that imposing a three-fold increase in
those fees was not warranted. We are unpersuaded
that the district court “based its ruling on an
erroneous view of the law or on a clearly erroneous
assessment of the evidence.” Highmark, 572 U.S. at
563 n.2 (quoting Cooter & Gell, 496 U.S. at 405).
Merit Medical cites Rothschild Connected Devices
Innovations LLC v. Guardian Protection Services,
Inc., 858 F.3d 1383 (Fed. Cir. 2017), to support its
argument that the district court “improperly
conflated” Rule 11 with § 285 rather than accounting
for the totality of the circumstances. CrossAppellant’s Br. 80. In Rothschild, the district court
denied a motion for fees under § 285 based on its
finding that the patent owner’s “decision to
- 20a -

voluntarily withdraw its complaint within [Rule 11’s]
safe harbor period [wa]s the type of reasonable
conduct [that] Rule 11 is designed to encourage” and,
thus, awarding fees under § 285 would “‘contravene[]
the aims of Rule 11[’s]’ safe-harbor provision.” 858
F.3d at 1390 (latter three alterations in original)
(quoting Rothschild Connected Devices Innovations,
LLC v. Guardian Prot. Servs., Inc., No. 15-cv-1431,
2016 WL 3883549, at *2 (E.D. Tex. July 18, 2016)).
We held that the district court’s decision was
contrary to the Supreme Court’s admonition that
“[w]hether a party avoids or engages in sanctionable
conduct under Rule 11(b) ‘is not the appropriate
benchmark’” for an award of fees under § 285. Id.
(quoting Octane Fitness, 572 U.S. at 555).
By contrast, here, the district court considered
the totality of the circumstances, including the
Khans’ litigation approach and the substantial
overlap between the complained-of conduct in Merit
Medical’s motion and the earlier sanctions motion.
Based on its assessment of the procedural history
and parties’ briefing, the district court determined
that the Khans’ conduct in this case—while
sanctionable—was not so unreasonable so as to make
this case one of the rare cases worthy of a three-fold
increase in fees imposed against them. Octane
Fitness gives district courts broad discretion in such
exceptional-case determinations. We are not
persuaded that the district court abused its
discretion in determining that this case is not
exceptional.
CONCLUSION
For the foregoing reasons, we affirm the district
court’s decisions dismissing the action with
- 21a -

prejudice, granting the defendants’ motion for
sanctions, denying the Khans’ cross-motion for
sanctions, and denying Merit Medical’s motion for
attorney fees under § 285. Because we have affirmed
the district court’s dismissal and award of sanctions
based on the issues of insufficient service of the
complaint under Rule 4 and improper venue, we
need not reach the district court’s determination of
misjoinder.
AFFIRMED
COSTS
No costs.

- 22a -

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
NAZIR KHAN and
IFTIKHAR KHAN,
Pro se Plaintiff,
v.
HEMOSPHERE, INC.,
CRYOLIFE INC.,
MERIT MEDICAL
SYSTEMS, INC.,
Hospitals and doctors
implanting unpatented
HeRo graft to Doctors,
et al.,
Defendants.

)
)
)
)
) No. 18 C 05368
)
) Judge Virginia M. Kendall
)
)
)
)
)
)
)
)
)
)

ORDER
Plaintiffs Nazir Khan and Iftikhar Khan filed
their complaint in the above captioned matter
asserting patent infringement claims under 35
U.S.C. § 112. Plaintiffs bring their claim against
more than three hundred defendants apparently
scattered throughout the United States. To date,
only eight of the defendants have filed an appearance
with the Court. Multiple defendants have filed
motions seeking this court to dismiss, transfer, or
sever the claims. Currently pending before the Court
- 23a -

are: Defendant Merit Medical System, Inc.’s (“Merit”)
motion to transfer, or in the alternative to dismiss
for improper venue; Defendant CryoLife Inc.’s
(“CryoLife”) motion to dismiss for insufficient service
of process, improper venue, misjoinder, or in the
alternative to sever and transfer; Defendants David
Varnagy, M.D. (“Dr. Varnagy”) and Mark Ranson’s,
M.D. (“Dr. Ranson”) motion to dismiss for failure to
state a claim; and Defendant Walter D. Blessing’s,
M.D. (“Dr. Blessing”) motion to dismiss for lack of
personal
jurisdiction,
improper
venue,
and
insufficient service of process. An initial status
hearing was held on November 15, 2018 where the
Court informed the parties that it would first
consider motions regarding the question of the
Court’s jurisdiction in this matter before addressing
the merits of the case.
In patent matters, questions of venue are
exclusively governed by 28 U.S.C. § 1400(b) which
instructs: “Any civil action for patent infringement
may be brought in the judicial district where the
defendant resides, or where the defendant has
committed acts of infringement and has a regular
and established place of business.” It is plaintiff’s
burden to establish a selected venue is proper.
Grantham v. Challenge-Cook Bros., Inc., 420 F.2d
1182, 1184 (7th Cir. 1969); see e.g., Niazi v. St. Jude
Med. S.C., Inc., 2017 WL 5159784, at *2-3 (W.D. Wis.
Nov. 7, 2017). “[A] domestic corporation ‘resides’ only
in its State of incorporation for purposes of the
patent venue statute.” TC Heartland LLC v. Kraft
Foods Group Brand LLC, 137 S.Ct. 1514, 1517
(2017). To satisfy the alternative prong of this venue
test, “(1) there must be a physical place in the
district; (2) it must be a regular and established
- 24a -

place of business; and (3) it must be the place of the
defendant.” In re Cray Inc., 871 F.3d 1355, 1360
(Fed. Cir. 2017). The Federal Circuit has emphasized
the need for a physical location in a venue, noting
that virtual spaces and electronic communications
within a venue are insufficient for purposes of this
analysis. Id. at 1361. “[T]he mere fact that a
defendant has advertised that it has a place of
business or has even set up on office is not sufficient;
the defendant must actually engage in business from
that location… A further consideration for this
requirement might be the nature and activity of the
alleged place of business of the defendant in the
district in comparison with that of other places of
business of the defendant in other venues. Such a
comparison might reveal that the alleged place of
business is not really a place of business at all.” Id.
at 1364 (emphasis in original). Where venue is
improper, “[t]he district court of a district in which is
filed a case laying venue in the wrong division or
district shall dismiss, or if it be in the interest of
justice, transfer such case to any district or division
in which it could have been brought.” 28 U.S.C. §
1406(a). As written, the statute directs that
dismissing the case serves as the default option for
the Court.
Plaintiffs’ claims against defendants Merit,
CryoLife, Dr. Varnagy, Dr. Ranson, and Dr. Blessing
are dismissed for improper venue. Plaintiffs do not
contend that any of these defendants reside in the
Northern District of Illinois, nor can they, as they
reside in, Utah, Georgia, Florida, Florida, and South
Carolina, respectively. In the alternative, plaintiffs
fail to carry their burden that any of these
defendants infringed on the patent in the Northern
- 25a -

District of Illinois and have a “regular and
established place of business” in the district. See 28
U.S.C. § 1400(b). Plaintiffs contend that the
defendants targeted their infringing activities
towards this district. However, Plaintiffs have not,
and cannot, demonstrate that each defendant has a
physical place in the district that is a regular and
established place of business. In re Cray Inc., 871
F.3d at 1360. Plaintiffs focus on the fact that Merit
and CryoLife have conducted business in Illinois.
The mere fact that certain companies may have
conducted isolated business transactions in the State
falls far from establishing a physical, regular, and
established place of business. See e.g., TC Heartland
LLC, 137 S.Ct., 1520-21; In re Cray Inc., 871 F.3d at
1262 (“sporadic activity cannot create venue”). Such
a reading of the statute would necessarily explode
the scope of venue in patent cases. Next, Plaintiffs
suggest that certain employees of Merit and CryoLife
live and conduct business within the district. Again,
this argument does little work for plaintiffs. The
inquiry here is focused on whether the physical
established place of business is that of defendants
and not their employees. Plaintiffs put forward no
evidence supporting this argument and Merit and
CryoLife affirmatively demonstrate that the
corporations do not own any place of business in
Illinois or in any way contribute to the housing needs
of their employees in Illinois. (Dkts. 18-1, 23-1).
Therefore, venue is improper for Merit and CryoLife.
The same is true for Drs. Varnagy, Ranson, and
Blessing. There is no dispute that Drs. Varnagy and
Ranson reside in Florida and plaintiffs have not
presented any evidence suggesting that either of
them have a physical, regular, and established place
- 26a -

of business in the district. Similarly, Dr. Blessing’s
declaration states: “I have never practiced medicine
in Illinois, performed any surgeries in Illinois,
implanted any medical devices into patients in
Illinois, directed any business or personal activities
at Illinois, or advertised my services in Illinois.”
(Dkt. 40-1). Plaintiffs make no attempt whatsoever
to counter such evidence and consequently fail to
carry their burden as to why venue is proper for Drs.
Varnagy, Ranson and Blessing.
It is noted that certain defendants sought
transfer instead of dismissal. However, transfer is
only the proper recourse if “it be in the interest of
justice.” 28 U.S.C. § 1406(a). Given that the case is
essentially in its infancy with no discovery
underway, dismissal without prejudice is the
appropriate resolution here rather than determining
appropriate venue for potentially three hundred
defendants. Plaintiffs’ claims against Merit,
CryoLife, Dr. Varnagy, Dr. Ranson, and Dr. Blessing
are dismissed without prejudice for improper venue.
In reaching its decision that venue is improper for
the above-mentioned defendants, the Court does not
consider the various other reasons as to why
dismissal may be warranted in this matter. This
Court would caution plaintiffs to take heed of the
potentially meritorious arguments raised by
defendants thus far in considering the proper and
most effective way to prosecute their case going
forward.
/s/ Virginia M. Kendall
Virginia M. Kendall
United States District Judge
Date: January 23, 2019
- 27a -

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
NAZIR KHAN and
IFTIKHAR KHAN,
Pro se Plaintiff,
v.
HEMOSPHERE, INC.,
CRYOLIFE INC.,
MERIT MEDICAL
SYSTEMS, INC.,
Hospitals and doctors
implanting unpatented
HeRo graft to Doctors,
et al.,
Defendants.

)
)
)
)
) No. 18 C 05368
)
) Judge Virginia M. Kendall
)
)
)
)
)
)
)
)
)
)

ORDER
Presently before the Court is Plaintiffs’ motion to
reconsider (Dkt. 77) the Court’s January 23, 2019
order granting five of the more than three hundred
defendants’ motions to dismiss. (Dkt. 76). Plaintiffs’
motion is not clear on its face as to which Rule it
attempts to seek relief under and the Federal Rules
of Civil Procedure do not explicitly contemplate a
motion to “reconsider.” However, district courts
generally consider such motions under Rule 59(e) or

- 28a -

Rule 60(b). See Mares v. Busby, 34 F.3d 533, 535 (7th
Cir. 1994).
A motion for reconsideration is reserved solely for
correcting manifest errors of law or fact or to present
newly-discovered evidence. See Caisse Nationale de
Credit Agricole v. CBI Indus., Inc., 90 F.3d 1264,
1270 (7th Cir. 1996). Rule 60(b) provides relief in
only the most “extraordinary situations where a
judgment is the inadvertent product of special
circumstances and not merely erroneous application
of law.” Kennedy v. Schneider Elec., 893 F.3d 414,
419 (7th Cir. 2018) (internal citations omitted).
Similarly, “[t]o prevail on a Rule 59(e) motion to
amend judgment, a party must ‘clearly establish’ (1)
that the court committed a manifest error of law or
fact, or (2) that newly discovered evidence precluded
entry of judgment.” Blue v. Hartford Life & Acc. Ins.
Co., 698 F.3d 587, 598 (7th Cir. 2012). Plaintiffs
must also carry the burden of demonstrating that
any new evidence could not have been discovered
prior to the Court’s order with reasonable diligence.
See Caisse Nationale de Credit Agricole, 90 F.3d at
1269.
Plaintiffs’ motion fails under either Rule 59(e) or
Rule 60(b) as they do not identify any manifest error
of law or fact in the Court’s order. Instead, Plaintiffs
primary contention seems to be a mere disagreement
with the Court’s conclusion in favor of the
Defendants. Plaintiffs, however, cannot use this
motion as a tool to rehash issues and arguments that
have previously been presented and disposed of. Id.
at 1270. Plaintiffs are doing precisely that with the
present motion by reiterating arguments that they
raised in their briefing on the motion to dismiss.
- 29a -

Plaintiffs purport to bring new evidence to light in
the form of LinkedIn profiles and documents from
the Secretary of State’s website identifying the agent
for accepting service of process for Defendants Merit
and Cryolife. (Dkt. 77). Such evidence does not move
the needle or change the Court’s calculus. As
discussed in the Court’s order on the motion to
dismiss, the presence of Defendants’ employees
within the State is insufficient for venue to lie in the
Northern District of Illinois. In re Cray Inc., 871 F.3d
1355, 1363 (Fed. Cir. 2017) (“As the statute
indicates, it must be a place of the defendant, not
solely a place of the defendant’s employee.”)
(emphasis in original). Likewise, the fact that certain
Defendants may have agents designated to accept
service of process is of little consequence. The focus
of the venue inquiry, as outlined by the Federal
Circuit, is that there must be a “physical,
geographical location in the district from which the
business of the defendant is carried out.” Id. at 1360.
There is no indication that the address provided by
Plaintiffs from the Secretary of State’s website is a
regular and established place where the Defendants,
not the agent, conduct business. Id. at 1363. What is
more, even assuming that any of this new evidence
was persuasive, Plaintiffs have not carried their
burden, and likely cannot do so, to establish that
such evidence could not have been discovered at an
earlier time. Blue, 698 F.3d at 598. A simple Google
search would have yielded such information at any
time throughout these proceedings.
Accordingly, the Court denies Plaintiffs’ motion to
reconsider as they have failed to carry their
substantial burden under both Rule 59(e) and Rule
60(b). Plaintiffs have not identified a single error of
- 30a -

law or fact in the Court’s order and instead have
used this motion to impermissibly rehash previously
unsuccessful arguments. They have further failed to
demonstrate how any allegedly newly discovered
evidence would have precluded the Court from
entering the order dismissing certain defendants. Id.
The Court again cautions Plaintiffs that prosecuting
a patent case of any size, much less one against three
hundred defendants, is a complex endeavor. In doing
so, Plaintiffs should carefully evaluate clearly
established requirements set forth in governing
statutes and other applicable authority so as not to
unnecessarily occupy the time and resources of the
Court and other involved partiesǤ
/s/ Virginia M. Kendall
Virginia M. Kendall
United States District Judge
Date: February 13, 2019

- 31a -

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
)
NAZIR KHAN and
)
IFTIKHAR KHAN,
)
Pro se Plaintiff, )
) No. 18 C 05368
v.
)
) Judge Virginia M. Kendall
HEMOSPHERE, INC., )
CRYOLIFE INC.,
)
MERIT MEDICAL
)
SYSTEMS, INC. at el, )
Defendants.
)
)
MEMORANDUM OPINION AND ORDER
Plaintiffs Nazir Khan and Iftikhar Khan filed this
action against more than 300 defendants alleging
patent infringement under 35 U.S.C. § 112. Five of
these Defendants were previously dismissed for
improper venue. (Dkt. 76). As a byproduct of how the
Plaintiffs have chosen to structure and litigate their
case, the moving Defendants have presented the
Court with a selection of paths the Court might take
to dispose of this case. Currently pending before the
Court are eleven separate Motions to Dismiss from
116 of the remaining Defendants. Defendants’
Motions seek dismissal for lack of personal
jurisdiction, improper venue, misjoinder, insufficient
service, and untimely service. (Dkts. 88, 90, 93, 96,
- 32a -

99, 100, 102, 105, 107, 111, 131). Despite these
eleven Motions brought by more than 100
Defendants, a significant number of named
Defendants have not yet joined the Court and the
parties on this adventure due to Plaintiffs’ inability
to effect service. Additionally, a selection of the nonresident Defendants seek sanctions against Plaintiffs
for their repeated assertions that venue is proper in
the Northern District of Illinois and that service was
properly completed. (Dkt. 113). For the following
reasons, Defendants’ Motions to Dismiss are granted,
the claims against all non-moving Defendants are
dismissed for want of prosecution, and the nonresident Defendants’ Motion for Sanctions is granted.
BACKGROUND
For purposes of evaluating a Motion to Dismiss,
the Court takes all wellpleaded facts as true.
Calderon-Ramirez v. McCament, 877 F.3d 272, 275
(7th Cir. 2017). Plaintiffs bring this action pro se and
filed their Complaint on August 7, 2018. (Dkt. 1).
Plaintiffs are Illinois surgeons who have the
exclusive rights to Patent 8,747,344, “[a] Hybrid
arteriovenous shunt that serves as a conduit
connecting an artery to the right atrium of the heart
whereby the impure arterial blood flows continuously
to the right atrium.” (Id. at 43). Defendants, a
collection of corporations, hospitals, and individual
physicians, allegedly infringed on the Patent by
implanting the HeRO Graft into patients. (Id. at 40.)
Defendants, almost exclusively, reside and practice
outside the Northern District of Illinois and outside
the State of Illinois entirely. (Id. at 1-38). Plaintiffs
allege that the individual physicians are guilty of
infringement by way of implanting the HeRO Graft
- 33a -

into patients after receiving it from Hemosphere Inc.,
Cryolife Inc., and Merit Medical Systems Inc.1
At the parties’ initial status conference, the Court
informed Plaintiffs that patent law is unique and
requires a certain level of knowledge, they were
encouraged to hire counsel, and warned that as pro
se plaintiffs they will be held to the same level of
knowledge with respect to court rules and
proceedings. (Dkt. 48). The Court also informed
Plaintiffs of the pro se Help Desk in the building and
gave them a paper informing them how they could
schedule an appointment. Id. At the following status
hearing, more than 150 days after the filing of the
Complaint, Plaintiffs insisted that proper service had
been completed for all Defendants despite Plaintiffs
having filed proof of waiver regarding just a single
Defendant. (Dkt. 74, Dkt. 53). Plaintiffs maintained
that they had requested a waiver of service from all
Defendants by certified mail. Id. In an attempt to
clarify apparent confusion by Plaintiffs that simply
placing the waiver request in the mail is equivalent
to service, the Court informed Plaintiffs that a
request to waive service is only a request and waiver
by Defendants is not mandatory. Id. At each status
hearing and in the Court’s written Orders (Dkts. 76,
84), Plaintiffs were instructed by the Court to think
strategically about their litigation approach and that
they would greatly benefit from hiring an attorney
who understands the Federal Rules and the
intricacies of patent law. (See e.g., Dkt. 120).
Defendants Merit Medical and Cryolife were dismissed as
a result of the Court’s Order on January 23, 2019. (Dkt. 76).
Defendant Hemosphere was never successfully served and
never filed an appearance in this matter (Dkt. 13) and is part of
the non-moving Defendants discussed within this Opinion.
1

- 34a -

Plaintiffs’ continued disregard of this Court’s
warnings, binding Supreme Court precedent, and the
Federal Rules has led them to the precarious position
they now find themselves—facing dismissal of their
Complaint and potential sanctions.
DISCUSSION
I. Motions to Dismiss
As listed above, the more than 100 moving
Defendants seeking dismissal do so on a variety of
grounds. Regardless of the path, this litigation yields
the same, inevitable ending. Accordingly, the Court
primarily addresses the issue of insufficient and
untimely service, an issue universal to all
Defendants.
A. Insufficient Service
“A district court may not exercise personal
jurisdiction over a defendant unless the defendant
has been properly served with process …” United
States v. Ligas, 549 F.3d 497, 500 (7th Cir. 2008).
Rule 4 allows plaintiffs to obtain waiver of service
from defendants, but defendants are not required to
waive formal service. Fed. R. Civ. P. 4(d). To properly
request waiver of service, plaintiffs must send a copy
of the complaint, two copies of the waiver form, and a
prepaid means to allow defendants to return the
form. Id. When service is not waived, plaintiff must
effect service by (1) delivering a copy of the summons
and of the complaint to the defendant personally, (2)
leaving a copy of the summons and complaint and
the defendant’s dwelling with someone who resides
there, (3) delivering a copy of the summons and
complaint to an agent authorized to receive service,
or (4) by other means permissible by state law in the
- 35a -

state where the complaint was filed or where service
is made. See Fed. R. Civ. P. 4(e); see also Ligas, 549
F.3d at 501. Rule 4 also requires that service be
completed within 90 days after the filing of the
complaint. Fed. R. Civ. P. 4(m). The Court “must
dismiss” the complaint if plaintiff fails to do so. Id.
Such a dismissal may be with prejudice “if the
plaintiff’s delay in obtaining service is so long that it
signifies failure to prosecute.” Williams v. Illinois,
737 F.3d 473, 476 (7th Cir. 2013).
Dismissal of all remaining Defendants is
warranted due to Plaintiffs’ insufficient and
untimely attempts at service. Plaintiffs claim they
sought waiver of service from the more than 300
Defendants and therefore they have complied with
the conditions of Rule 4. It is Plaintiffs’ position that
Defendants are required to waive service. (Dkt. 127,
at 2). This position is misplaced as waiver of service
is merely offered as an alternative to litigating
parties and defendants are by no means required to
accept waiver. Troxell v. Fedders of North America,
Inc., 160 F.3d 381, 383 (7th Cir. 1998). With very
limited exceptions, Defendants did not waive service
in this matter2. In the absence of waiver, Plaintiffs
Plaintiffs filed executed waivers of service for three
Defendants. Plaintiffs first filed a waiver of service executed by
Dr. Mark Rosenbloom (Dkt. 53) and later voluntarily dismissed
him. (Dkt. 98). Dr. Joseph Griffin waived service and seeks
dismissal for improper venue, lack of personal jurisdiction, and
improper joinder. (Dkt. 88). Finally, Plaintiffs filed the executed
waiver of service for Dr. Robert Jubelirer. (Dkt. 78). Dr.
Jubelirer has not yet filed an appearance on the docket and has
not otherwise moved to dismiss. Nonetheless, the claims
against Dr. Jubelirer are dismissed for improper service along
with the other grounds mentioned in this Opinion and the
Court’s previous Order—improper venue and misjoinder. The
2

- 36a -

have not attempted to personally serve Defendants
and instead have insisted throughout the course of
this litigation that they completed service by mailing
the summons and Complaint to Defendants. Rule
4(e)(2) does not permit personal service via mail and
Plaintiffs have not identified any state laws which
would otherwise allow service by mail.
Plaintiffs also failed to comply with the timeliness
requirements of Rule 4(m). Still, more than 250 days
after Plaintiffs filed their Complaint, nearly all of the
Defendants have still not been properly served. The
Plaintiffs provide no justification for this extreme
delay besides their tired refrain that service was
completed by U.S. Mail. By maintaining this
contention, in the face of directly contrary
instruction from the Court, Plaintiffs have failed to
comply with the necessary procedural rules for
litigating their case. Therefore, due to insufficient
and untimely service, Plaintiffs’ Complaint is
dismissed for want of prosecution. Williams, 737
F.3d at 476.
B. Improper Venue
Alternatively, Plaintiffs’ Complaint is dismissed
for improper venue. The Court adopts its analysis
pertaining to improper venue as laid out in its
January 23, 2019 and February 13, 2019 Orders.
(Dkts. 76, 84). In short, venue is proper only where
the defendant resides or where the defendant
committed the infringement and has a regular place
of business. See 28 U.S.C. § 1400(b). The Complaint,
executed waiver of service pertaining to Dr. Jubelirer was filed
with the Court on January 28, 2019, well after the 90 days
permitted by Rule 4(m) and without any indication as to when
waiver was actually executed.

- 37a -

in conjunction with Plaintiffs’ related filings, is
devoid of any facts establishing that the infringing
acts occurred in this judicial district or that
Defendants reside in the district. To the contrary,
the Complaint alleges that the acts of infringement
took place in the states in which the Defendants
reside. (Dkt. 1, at 41). Further, nearly all of the
Defendants are not residents of Illinois and are
instead scattered throughout the country in dozens
of different states. See e.g., (Dkt. 89-2).
C. Misjoinder
Relatedly, were the claims not dismissed on other
grounds, they would be dropped pursuant to 35
U.S.C. § 299 which governs joinder of patent cases.
Joinder in patent infringement matters is proper
only when the alleged infringement arises:
out of the same transaction, occurrence, or series
of transactions or occurrences relating to the
making, using, importing into the United States,
offering for sale, or selling of the same accused
product or process; and questions of fact common
to all defendants or counterclaim defendants will
arise in the action.
35 U.S.C. §299; see also Fed. R. Civ. P. 20(a)(2).
Further, the mere fact that multiple infringers each
allegedly infringed on the patent is not sufficient for
joining them as defendants in a single action. Id. The
joinder statute “looks for a ‘logical relationship’
between the claims linking the underlying facts.” In
re Apple Inc., 650 F.App’x 771, 775 (Fed. Cir. 2015)
(quoting In re EMC Corp., 677 F.3d 1351, 1358-59
(Fed. Cir. 2012)). Here, the Plaintiffs have cast as
wide of a net as possible in attempt to capture all
- 38a -

potential infringers. This practice is plainly
forbidden by § 299. The Complaint simply alleges
that each of the individual Defendants infringed on
the patent in their home state where they reside.
There are no allegations that the Defendants’ actions
were performed in concert or connected in any way.
Joinder is not suitable where a party completely fails
to satisfy the “requirement of a common transaction
or occurrence where unrelated defendants, based on
different acts, are alleged to have infringed the same
patent.” Rudd v. Lux Prod. Corp. Emerson Climate
Techs. Braeburn Sys., LLC, 2011 WL 148052, at *3
(N.D. Ill. Jan. 12, 2011). Without any “logical
relationship” between the facts associated with the
more than 300 Defendants, joinder is wholly
inappropriate. See In re Apple Inc., 650 App’x at 775.
As a result, each of the remaining Defendants are
dismissed for improper joinder under § 299.
II.

Non-Resident
Sanctions

Defendants’

Motion

for

A subset of the non-resident Defendants in this case
also move for sanctions under Rule 11(b)3. (Dkt. 113).
The moving non-resident Defendants assert that
Plaintiffs should be sanctioned for their arguments
regarding venue and service of process. Federal Rule
of Civil Procedure 11(b) entails that by presenting
papers to the court, the party certifies that the filing
is formed after a reasonable inquiry and:
(1) it is not being presented for any improper
purpose, such as to harass, cause unnecessary
The list of non-resident Defendants seeking sanctions is
attached as Exhibit A to Defendants’ Motion. (Dkt. 113-1).
Defendants Thomas Hatsukami, Todd Smith, Angelo Santos,
and Thomas Winek also join this Motion. (Dkt. 113, at 1).
3

- 39a -

delay, or needlessly increase the cost of
litigation;
(2) the claims, defenses, and other legal
contentions are warranted by existing law or
by a nonfrivolous argument for extending,
modifying, or reversing existing law or for
establishing new law;
(3) the factual contentions have evidentiary
support or, if specifically so identified, will
likely have evidentiary support after a
reasonable
opportunity
for
further
investigation or discovery…
Fed. R. Civ. P. 11(b). A frivolous argument is one
that is baseless or made without reasonable and
competent inquiry and therefore subject to the
consequences of Rule 11. See Berwick Grain Co., Inc.
v. Ill. Dep’t of Agric., 217 F.3d 502, 504 (7th Cir.
2000). Rule 11 “plainly authorizes a district court to
sanction a lawyer who without reasonable inquiry
tenders a submission that includes legal contentions
not warranted…” Id. at 504. While the Court does
have the discretion to issue sanctions, such authority
should be used sparingly in recognition of the impact
sanctions can have beyond the merits of the case.
Hartmarx Corp. v. Abboud, 326 F.3d 862, 867 (7th
Cir. 2003). The Court reviews the allegedly
sanctionable conduct under a standard of objective
reasonableness and considers whether the offending
party should have known his position was
groundless. Cuna Mut. Ins. Soc. v. Office and Prof’l
Emp. Int’l Union, Local 39, 443 F.3d 556, 560 (7th
Cir. 2006).

- 40a -

A. Sanctions for assertions regarding venue
Throughout this litigation, Plaintiffs have
repeatedly asserted that venue is proper in the
Northern District of Illinois. Early on, Merit Medical
and Cryolife moved to dismiss or sever based on
improper venue. (Dkts. 17, 26). In their response,
Plaintiffs relied on the Federal Circuit’s decision in
TC Heartland. (Dkt. 21). This reliance was sorely
misplaced though as the Federal Circuit was clearly
reversed by the Supreme Court in May 2017, well
over a year before Plaintiffs filed their response. TC
Heartland LLC v. Kraft Foods Group Brans LLC,
137 S. Ct. 1514, 1519 (2017). The Court specifically
cited to the Supreme Court’s decision in its Order
granting dismissal and in status hearings. (Dkt. 76).
Indeed, the Court “caution[ed] plaintiffs to take heed
of the potentially meritorious arguments raised by
defendants thus far in considering the proper and
most effective way to prosecute their case going
forward.” Id.
Along with governing precedent, the relevant
statute concerning venue in patent matters is clear.
“Any civil action for patent infringement may be
brought in the judicial district where the defendant
resides, or where the defendant has committed acts
of infringement and has a regular and established
place of business.” 28 U.S.C. § 1400(b). The Plaintiffs’
own Complaint undercuts any good faith basis for
asserting venue is proper in this district. All of the
Defendants seeking sanctions practice and reside
outside of the state of Illinois and the Complaint
claims that the alleged infringement, with respect to
each doctor, occurred “at their addresses in their
respective states.” (Dkt. 1, at 41). Despite guidance
- 41a -

from this Court, Plaintiffs again raised their baseless
argument in their Motion to Reconsider. (Dkt. 77).
No reasonable person would have concluded that
such an argument had support in the law or in the
facts of this case and accordingly Plaintiffs actions
are sanctionable.
B.

Sanctions
service

for

assertions

regarding

Plaintiffs
similarly
made
consistent
representations in their filings and in hearings that
they had complied with the requirements for
perfecting service of process. Plaintiffs attempted to
serve all Defendants by requesting a waiver of
service as contemplated in Rule 4(d). However,
Plaintiffs filed only three waivers of service with the
Court out of the more than 300 purportedly sent.
(Dkt. 53, 78). Plaintiffs asserted that service by
certified mail was sufficient as early as October 2,
2018 (Dkt. 21) and maintained this position through
their most recent filing with the Court on March 26,
2019. (Dkt. 130). See also (Dkt. 46, at 1; Dkt. 83, at
4). Throughout this time, the Court instructed
Plaintiffs that waiver of service is merely optional for
Defendants to comply with and in the absence of
waiver, they must accomplish service through other
means. (Dkt. 74). The Federal Rules do not permit
service by mail and Plaintiffs have failed to identify
any case law or procedural rules permitting service
by mail in the dozens of different states where
Defendants reside. Plaintiffs’ stubborn assertions to
the contrary are without any merit and no
reasonable person would have believed otherwise.
Rule 11(c) requires that a party seeking sanctions
must wait 21 days after the offending party is put on
- 42a -

notice of the possibly sanctionable offense. Fed. R.
Civ. P. 11(c)(2). This 21-day window is intended to
serve as a safe harbor to allow the challenged party
to withdraw or correct offending activity. Defendants
put Plaintiffs on notice of their intent to seek
sanctions as early as September 24, 2018, then again
on October 3, 2018, January 28, 2019, February 13,
2019, and February 15, 2019. See (Dkt. 114, Exhibits
B, C, E, F, G, I). Defendants’ “early and often”
approach in corresponding with Plaintiffs regarding
their desire to pursue sanctions no doubt satisfies
the 21-day requirement of Rule 11(c).
As pro se plaintiffs, the Khan’s are “entitled to
some leniency before being assessed sanctions for
frivolous litigation.” Thomas v. Foster, 138 Fed.Appx.
822, 823 (7th Cir. 2005) (citing Pryzina v. Ley, 813
F.2d 821, 823-24 (7th Cir. 1987)). However, this
leniency is not without limits. See Bacon v. Am.
Fed’n of State, Cty., & Mun. Emps. Council, No. 13,
795 F.2d 33, 35 (7th Cir. 1986) (“[W]hen a layman
persists in a hopeless cause long after it should have
been clear to him, as a reasonable (though not lawtrained) person, that his cause was indeed hopeless,
sanctions should be imposed….”). The Court allowed
Plaintiffs to respond to the Motion for Sanctions
orally (Dkt. 120) and provided them with the
opportunity to file multiple responses. (Dkts. 118,
118, 128, 130). Plaintiffs not only acted in direct
contravention to clear procedural rules, statutes, and
governing law, but continued to do so after being
repeatedly warned at hearings by the Court, in
written orders, and in correspondence with defense
counsel. It is more than objectively reasonable to
believe that the Plaintiffs should have known their
positions on venue and service were groundless.
- 43a -

While patent law can no doubt be a thorny area of
the law, Plaintiffs missteps came far short of the
substantive merits of this dispute. Nor can it be said
that these Plaintiffs are naïve; being both medical
doctors and the alleged inventors of a complicated
medical device. Governing authority regarding
proper service of process and venue render Plaintiffs
repetitive assertions and arguments nothing more
than frivolous.
The non-resident Defendants’ Motion for
Sanctions is granted. (Dkt. 113). Sanctions shall
include Pro Hac Vice filing fees and costs incurred by
the non-resident Defendants in association with
their Motion to Dismiss and Motion for Sanctions.
The non-resident Defendants shall file a breakdown
of the fees they intend to recover within 21 days.
CONCLUSION
For the reasons detailed above, Defendants’ Motions
to Dismiss are granted and Plaintiffs’ Complaint is
dismissed with prejudice for want of prosecution due
to Plaintiffs’ delay in obtaining proper service and
alternatively for improper venue and misjoinder.
(Dkts. 88, 90, 93, 96, 99, 100, 102, 105, 107, 111,
131). The non-resident Defendants’ Motion for
Sanctions is granted. (Dkt. 113). Plaintiffs shall pay
reasonable fees associated with Defendants’ filing
fees, Motion to Dismiss, and Motion for SanctionsǤ
/s/ Virginia M. Kendall
Virginia M. Kendall
United States District Judge
Date: May 16, 2019

- 44a -

APPENDIX E
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
Nazir Khan and
Iftikhar Khan,
Plaintiff(s),

Case No. 18 C 5368
Judge Virginia M. Kendall

v.
Hemosphere, Inc., et al,
Defendant(s).

JUDGMENT IN A CIVIL CASE
Judgment is hereby entered (check appropriate box):

□

in favor of plaintiff(s)
and against defendant(s)
in the amount of $
,

which

□ includes pre–judgment interest.
□ does not include pre–judgment interest.

Post-judgment interest accrues on that amount at
the rate provided by law from the date of this
judgment.
Plaintiff(s) shall recover costs from defendant(s).
- 45a -

6

in favor of defendant(s) Hemosphere Inc., et al
and against plaintiff(s) Nazir Khan and
Iftikhar Khan

Defendant(s) shall recover costs from plaintiff(s).

□

other:

This action was (check one):

□
□
6

tried by a jury with Judge presiding, and the
jury has rendered a verdict.
tried by Judge without a jury and the above
decision was reached.
decided by Judge Virginia M. Kendall on
Motions to Dismiss.

Date: 5/16/2019

Thomas G. Bruton, Clerk of Court
/s/ Lynn Kandziora, Deputy Clerk

- 46a -

APPENDIX F
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
)
NAZIR KHAN and
)
IFTIKHAR KHAN,
)
Pro se Plaintiff, )
) No. 18 C 05368
v.
)
) Judge Virginia M. Kendall
HEMOSPHERE, INC., )
CRYOLIFE INC.,
)
MERIT MEDICAL
)
SYSTEMS, INC. at el, )
Defendants.
)
)
ORDER
Since the filing of the Complaint in this matter,
Plaintiffs have exhibited a complete disregard of the
Court’s procedures, Federal Rules, and controlling
precedent. This pattern of indifference has resulted
in their Complaint being dismissed and sanctions
being granted in favor of Defendants. Such actions
have not abated since the granting of Defendants’
Motions to Dismiss and Motion for Sanctions.
Instead, Plaintiffs have continued to pepper the
Court’s docket with unsolicited filings while
attempting to advance arguments that have long
been deemed wholly irrelevant.
The Court granted Defendants’ Motion for
Sanctions and instructed Plaintiffs to pay
- 47a -

Defendants’ fees associated with the filing of the
Motions to Dismiss and Motion for Sanctions. Rather
than challenge the fees that Defendants seek,
Plaintiffs continue their misguided efforts in
asserting the validity of their patent. See e.g., Dkts.
151, 155, 156, 165, 167, 168. For the reasons stated
within, Defendants’ Motion for Attorney Fees is
granted in the amount of $95,966.90.1 (Dkt. 144).
The first step in determining the fees a prevailing
party is entitled to is to calculate the lodestar
amount or “the hours reasonably expended
multiplied by the reasonable hourly rate.” Johnson v.
GDF, Inc., 668 F.3d 927, 929 (7th Cir. 2012). Then,
only in limited circumstances can the lodestar
amount be adjusted. Id. “The best evidence of an
attorney’s market rate is his or her actual billing
rate for similar work.” Id. at 933. Once this lodestar
amount is calculated, it is considered “presumptively
reasonable” and it then becomes the opposing party’s
burden to convince the court that a lower rate is
“required.” Robinson v. City of Harvey, 489 F.3d 864,
872 (7th Cir. 2007) (emphasis in original). General
objections will not suffice. The opposing party must
state its objections “with particularity and clarity.”
Hutchison v. Amateur Elec. Supply, Inc., 42 F.3d
1037, 1048 (7th Cir. 1994) (quoting Ohio-Sealy
Mattress Mfg. Co. v. Sealy Inc., 776 F.2d 646, 664

The Court notes that it did not consider Defendants’
Supplemental Information (Dkt. 169) regarding Plaintiffs’
litigation activity in Illinois state court while reaching the
current decision. The Court declines to wade into state court
waters and instead reaches this decision solely based on the
issues properly before it. Therefore, Defendants’ Motion to file
Supplemental Information is denied as moot. (Dkt. 169).
1

- 48a -

(7th Cir. 1985)); see also Farmer v. DirectSat USA,
2015 WL 13699343, at *3 (N.D. Ill. Mar. 18, 2015).
Here, Defendants have submitted a detailed
accounting of their work pertaining to the Motions to
Dismiss and Motion for Sanctions. Such efforts
amounted to 233.7 hours worked, generating
$95,966.90 in fees. Brent Lorimer, lead counsel for
the moving Defendants, is an attorney with 37 years
of experience and billed at an hourly rate of $472.50.
See Dkt. 144. Thomas Vuksinick and Vladimir
Arezina are similarly experienced attorneys with
hourly billing rates of $414.00 and $560.00/$480.00
an hour, respectively. Id. Facially, these rates are
perfectly reasonable billing rates for attorneys of this
caliber, as demonstrated in their respective
supporting declarations and materials citing to
comparable rates for similar attorneys. See Dkts. 145
and 146.
With
Defendants
demonstrating
both
a
reasonable hourly rate and a reasonable amount of
hours billed, the burden shifts to Plaintiffs to lodge
specific objections. See Hutchison, 42 F.3d at 1048.
Despite filing several briefs and responses to
Defendants’ Motion, Plaintiffs’ managed to mount
only general objections to Defendants’ fee petition
while instead devoting significant time to trying to
litigate the merits of their patent—well after their
case has been dismissed. Without citing to any
authority, Plaintiffs make the general statement
that “in any state, the reasonable cost for [a motion
to dismiss] by any form is at most $1000-$2000, as
Drs Khan have confirmed with their many attorney
friends.” (Dkt. 151, pg. 2). The bald assertion that
the petitioned fees are too expensive falls well short
- 49a -

of the burden Plaintiffs have. See e.g., Berg v.
Culhane, 2011 WL 589631, at *2 (N.D. Ill. Feb. 10,
2011). Plaintiffs assert that it is simply unreasonable
for Defendants’ counsel to have spent over 200 hours
litigating the Motions to Dismiss and Motion for
Sanctions. Even if generalized statements were a
proper challenge to Defendants’ fee petition, it falls
flat in the context of this case. Patent infringement
cases are inherently complex. Here, this litigation
was made all the more complicated by the
affirmative actions of Plaintiffs, namely, choosing to
sue more than 300 defendants from across the
country in a single venue all the while ignoring
consistent warnings from the Court and opposing
counsel. As a result, counsel briefed multiple Motions
to Dismiss on behalf of dozens of individual
Defendants.
Plaintiffs’
additional
complaints
regarding receiving “unsolicited” emails from counsel
are similarly  Ǥ  ǡ Plaintiffs
ignore the inescapable fact that, as pro se Plaintiffs,
Defendants’ counsel had no choice but to correspond
with them directly. These objections provide no
specific justification as to why a downward departure
from the calculated lodestar amount is required.
The unique burden placed on Defendants was of
Plaintiffs’ own creation as masters of their
Complaint and they cannot now cry foul. The time
spent by counsel on this case is a direct reflection of
how Plaintiffs’ chose to conduct themselves
throughout
this
litigation.
As
such,
the
presumptively valid lodestar amount of $95,966.90
stands without valid objection from Plaintiffs and the
Court grants the fee petition in its entirety in favor
of Defendants, including Defendant Dr. Brooks.
Robinson, 489 F.3d at 872.
- 50a -

Finally, the Court addresses Plaintiffs’ Request
for Sanctions against Defendants. Again, Plaintiffs
seek to use this Request as an opportunity to litigate
the merits of the underlying Patent. (Dkt. 155). The
Court need not address the merits of this Request as
it is brought improperly under both the Federal
Rules of Civil Procedure and this Court’s Local
Rules. Rule 11 does not permit parties to freely seek
sanctions whenever they please. Instead, parties
must comply with the safe harbor provisions of the
Rule by providing the opposing party timely notice of
the alleged violation. Fed. R. Civ. P. 11(c). Plaintiffs’
have not established their compliance with this
provision and therefore the Request for Sanctions is
denied. The Request similarly warrants dismissal for
failure to be properly presented before the Court.
Local Rule 5.3(b).
/s/ Virginia M. Kendall
Virginia M. Kendall
United States District Judge
Date: July 15, 2019

- 51a -

APPENDIX G
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS,
EASTERN DIVISION
NAZIR KHAN and
IFTIKHAR KHAN,
Plaintiffs,
v.
HEMOSPHERE
INC., CRYOLIFE
INC., MERIT
MEDICAL
SYSTEMS, INC.
ET AL.,

Civil Action No. 1:18-cv-05368
Judge Virginia M. Kendall
Magistrate Judge Maria Valdez
FINAL JUDGMENT
AWARDING ATTORNEY’S
FEES AS RULE 11
SANCTIONS

Defendants.
Judgment is hereby entered in favor of Merit
Medical Systems, Inc. (“Merit”) as subrogee of the
defendants who filed the motion for sanctions (DKT
No. 113) and against Plaintiffs Iftikhar Khan and
Nazir Khan, jointly and severally, in the amount of
$95,966.90. Pursuant to 28 U.S.C. § 1961, postjudgment interest shall accrue on this judgment at
the rate of 2.36% per annum, compounded annually.
Merit shall be entitled to enforce this judgment in
its own name.
Dated: July 24, 2019.

BY THE COURT:
/s/ Virginia M. Kendall
VIRGINIA M. KENDALL
U.S. DISTRICT JUDGE
- 52a -

APPENDIX H

UNITED STATES DISTRICT COURT
FOR THE Northern District of Illinois − CM/ECF
LIVE, Ver 6.3.1
Eastern Division
Nazir Khan, et al.
Plaintiff,
v.

Case No.: 1:18−cv−05368
Honorable Virginia M. Kendall

Hemosphere Inc., et al.
Defendant.
________________________________
__

NOTIFICATION OF DOCKET ENTRY
This docket entry was made by the Clerk on
Wednesday, September 4, 2019:
MINUTE entry before the Honorable Virginia M.
Kendall: After the Court granted Defendants'
request for sanctions on 5/16/2019 and approved its
fee petition, Defendants now, three months later,
seek to have this Court declare the case “exceptional”
and award attorney fees under 35 U.S.C. § 285 in the
amount of $292,693.00. (Dkt. 196). Defendants also
ask the Court to “award Merit an additional
$95,966.90 in fees in the event the Rule 11 sanctions
already awarded are vacated or reversed on appeal.”
(Dkt. 197, pg. 15) (emphasis added). Starting with
the latter request, the Court declines the invitation
to prognosticate on what the Court of Appeals might
do and rule under a set of hypothetical
circumstances. The request for an additional
- 53a -

$95,966.90 is denied. Returning to the thrust of
Defendants’ Motion, that the case be deemed
exceptional, the Motion is also denied. The ability to
declare a case exceptional is left to this Courts
discretion based on a case−by−case analysis. Octane
Fitness, LLC v. ICON Health & Fitness, Inc., 572
U.S. 545, 554 (2014) (“District courts may determine
whether a case is ‘exceptional’ in the case−by−case
exercise of their discretionquot;). In conducting this
analysis, “there is no precise rule or formula” to
apply. Id. (quoting Fogerty v. Fantasy, Inc., 510 U.S.
517, 534 (1994)). “[A]n ‘exceptional’ case is simply
one that stands out from others with respect to the
substantive strength of a party's litigating position
(considering both the governing law and the facts of
the case) or the unreasonable manner in which the
case was litigated.” Id. Defendants’ supporting
memorandum cites largely identical conduct that
was previously before the Court on the initial motion
for sanctions. The Court has already extensively
considered this conduct in determining whether
sanctions were appropriate and indeed ruled in
Defendants favor on this matter. (Dkt. 135).
Defendants were keenly aware of Plaintiffs’ conduct
and had the ability to seek relief under § 285
previously, but instead chose to file and litigate a
motion for sanctions. Though Plaintiffs have litigated
this case in an unorthodox manner, no conduct has
occurred since the Court granted sanctions that
could be considered “exceptional” and justify a more
than three−fold increase in the fees awarded to
Defendants. The previous sanctions amount of
$95,966.90 is appropriate and reasonable given
Plaintiffs conduct in the case, but the extraordinary
step of deeming the case “exceptional” is not
- 54a -

warranted. Defendants’ Motion for attorney fees
under 35 U.S.C § 285 is denied. Motion hearing set
for 9/5/2019 is stricken. Mailed notice (mw, )
ATTENTION: This notice is being sent pursuant to
Rule 77(d) of the Federal Rules of Civil Procedure or
Rule 49(c) of the Federal Rules of Criminal
Procedure. It was generated by CM/ECF, the
automated docketing system used to maintain the
civil and criminal dockets of this District. If a minute
order or other document is enclosed, please refer to it
for additional information.
For scheduled events, motion practices, recent
opinions and other information, visit our web site at
www.ilnd.uscourts.gov.

- 55a -

APPENDIX I
NOTE: This disposition is nonprecedential.

United States Court of Appeals
for the Federal Circuit
________________________
NAZIR KHAN, IFTIKHAR KHAN,
Plaintiffs- Appellants
v.
HEMOSPHERE INC., ET AL.,
Defendants-Appellees
MERIT MEDICAL SYSTEMS INC.,
Defendant-Cross-Appellant
HOSPITALS AND DOCTORS IMPLANTING
UNPATENTED HERO GRAFT TO DOCTORS,
ET AL.,
Defendants
________________________
2019-1952, 2019-2394
________________________
Appeals from the United States District Court for the
Northern District of Illinois in No. 1:18-cv-05368,
Judge Virginia M. Kendall

- 56a -

________________________
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
________________________
Before PROST, Chief Judge, NEWMAN, LOURIE,
DYK, MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHES, and STOLL, Circuit Judges.
PER CURIAM.

ORDER
Appellants Iftikhar Khan and Nazir Khan filed a
combined petition for panel rehearing and rehearing
en banc. A response to the petition was invited by
the court and filed by the Appellees and CrossAppellant. The petition was referred to the panel
that heard the appeal, and thereafter the petition for
rehearing en banc was referred to the circuit judges
who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on November
13, 2020.
November 6, 2020
Date

FOR THE COURT
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

- 57a -

